<html>
<title> - WOMEN IN CONFLICT: ADVANCING WOMEN'S ROLE IN PEACE AND SECURITY</title>
<body><pre>[Senate Hearing 116-197]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 116-197
 
          WOMEN IN CONFLICT: ADVANCING WOMEN'S ROLE IN PEACE 
                              AND SECURITY

=======================================================================

                                HEARING


                               BEFORE THE

                        SUBCOMMITTEE ON WESTERN
                       HEMISPHERE, TRANSNATIONAL
                       CRIME, CIVILIAN SECURITY,
                        DEMOCRACY, HUMAN RIGHTS,
                       AND GLOBAL WOMEN'S ISSUES

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS


                             FIRST SESSION



                               __________

                  INSERT DATE HERE deg.JUNE 13, 2019

                               __________


       Printed for the use of the Committee on Foreign Relations
       
       
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    




                   Available via the World Wide Web:
                         http://www.govinfo.gov
                         
                         
                         

             U.S. GOVERNMENT PUBLISHING OFFICE 
 40-484 PDF            WASHINGTON : 2020                          
                         
                         
                         


                 COMMITTEE ON FOREIGN RELATIONS        

                JAMES E. RISCH, Idaho, Chairman        
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               BENJAMIN L. CARDIN, Maryland
CORY GARDNER, Colorado               JEANNE SHAHEEN, New Hampshire
MITT ROMNEY, Utah                    CHRISTOPHER A. COONS, Delaware
LINDSEY GRAHAM, South Carolina       TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
ROB PORTMAN, Ohio                    EDWARD J. MARKEY, Massachusetts
RAND PAUL, Kentucky                  JEFF MERKLEY, Oregon
TODD, YOUNG, Indiana                 CORY A. BOOKER, New Jersey
TED CRUZ, Texas


              Christopher M. Socha, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        


              SUBCOMMITTEE ON WESTERN HEMISPHERE,        
       TRANSNATIONAL CRIME, CIVILIAN SECURITY, DEMOCRACY,        
            HUMAN RIGHTS, AND GLOBAL WOMEN'S ISSUES        

                 MARCO RUBIO, Florida, Chairman        
ROB PORTMAN, Ohio                    BENJAMIN L. CARDIN, Maryland
TED CRUZ, Texas                      TOM UDALL, New Mexico
CORY GARDNER, Colorado               JEANNE SHAHEEN, New Hampshire
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia





                              (ii)        

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Rubio, Hon. Marco, U.S. Senator From Florida.....................     1

Cardin, Hon. Benjamin L., U.S. Senator From Maryland.............     4

Shaheen, Hon. Jeanne, U.S. Senator From New Hampshire............     5

Bottner, Andrea G., Senior Advisor to the Independent Women's 
  Forum; Founder, Bottner Strategies, LLC, Chevy Chase, MD.......     7
    Prepared statement...........................................     8

Bigio, Jamille, Senior Fellow for Women and Foreign Policy, 
  Council on Foreign Relations, Washington, DC...................    11
    Prepared statement...........................................    12

Kakar, Palwasha L., Senior Program Officer, Religion and 
  Inclusive Societies, United States Institute of Peace, 
  Washington, DC.................................................    16
    Prepared statement...........................................    19

              Additional Material Submitted for the Record

Women, Peace, and Security National Strategy Submitted by Jeanne 
  Shaheen........................................................    38


                             (iii)        


    WOMEN IN CONFLICT: ADVANCING WOMEN'S ROLE IN PEACE AND SECURITY

                              ----------                              


                        THURSDAY, JUNE 13, 2019

                               U.S. Senate,
 Subcommittee on Western Hemisphere, Transnational 
Crime, Civilian Security, Democracy, Human Rights, 
                         and Global Women's Issues,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:05 a.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Marco Rubio, 
chairman of the subcommittee, presiding.
    Present. Senators Rubio [presiding], Risch, Gardner, 
Cardin, Shaheen, and Kaine.

            OPENING STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. Good morning. I would like to welcome 
everyone to today's hearing of the Senate Foreign Relations 
Subcommittee on the Western Hemisphere, Transnational Crime, 
Civilian Security, Democracy, Human Rights, and Global Women's 
Issues. We got to come up with an acronym. This is way too 
long.
    [Laughter.]
    Senator Rubio. It does not fit on letterhead.
    Anyway, today's hearing is on a very important topic: Women 
in Conflict: Advancing Women's Role in Peace and Security.
    We only have one panel today, but a great panel. Ms. Andrea 
Bottner is the Senior Advisor to the Independent Women's Forum 
and founder of Bottner Strategies. Ms. Jamille Bigio is the 
Senior Fellow for Women and Foreign Policy at the Council on 
Foreign Relations, and Ms. Palwasha Kakar is the Senior Program 
Officer for Religion and Inclusive Societies at the United 
States Institute of Peace. I want to thank all of you for 
taking the time to be with us today and to discuss this issue 
of critical importance to our national security and to 
international stability.
    I would like to thank first my colleagues that are here 
today for their partnership and their individual work as well 
on issues affecting women and girls around the world. The 
chairman of this committee, Jim Risch, has been a great leader 
in the Senate and chairing this committee on this topic, as 
well as the ranking member, Senator Menendez. I also want to 
note the work of Senator Shaheen, who has been a tireless 
advocate on ensuring women around the world have equal 
opportunities to succeed. She led the Women, Peace, and 
Security Act of 2017 that was signed into law by President 
Trump last year--2 years ago.
    Earlier this week, the Trump administration rolled out the 
new Women, Peace, and Security Strategy, as required by law. 
And the strategy seeks to ensure women's meaningful 
participation and leadership in political and civil life and 
empower them to play key roles in decision-making and peace 
processes. It rightfully recognizes the critical role that 
women play in enacting change, resolving conflict, 
counterterrorism, and advancing peace.
    The United States is the first country in the world to 
enact a comprehensive law on this issue. I think this is an 
achievement we should be proud of, and I look forward to now, 
along with all the members of this committee, supporting its 
implementation in the years to come.
    As we look at the map of the world today, unfortunately we 
have ongoing conflicts on almost every continent. From South 
Sudan to Afghanistan, to Burma, to Syria, to the major 
humanitarian disaster in our own hemisphere, Venezuela, it 
seems no region is untouched by conflict.
    Though conflict inflicts suffering on everyone, women are 
particularly and uniquely affected by conflict. Women and girls 
are the most vulnerable when conflicts erupt, and they are 
often targeted with violence, specifically sexual violence. 
These gender-based assaults are used as a weapon of war. The 
accounts are heartbreaking and harrowing.
    In Burma, during the 2017 violence, Rohingya women were 
subjected to unspeakable horrors. They were lined up and 
brutally raped by Burmese military forces and in some cases 
their babies taken from them and murdered.
    In Iraq, under ISIS, Yazidi women were forced to endure 
years of torture and rape. Girls were separated by eye color 
and sold as sex slaves, often sold multiple times to ISIS 
fighters based on the ISIS fighters' personal preferences.
    In Nigeria, Boko Haram militants kidnapped girls, forced 
them into marriages, and committed sexual violence, and 
deployed women and girls as suicide bombers.
    I could go on for hours unfortunately, but women are, more 
often than not, marginalized during the end of conflict. They 
are left out of discussions to find political solutions in 
peace processes. They are barred from making decisions about 
their own future.
    However, thankfully there is a growing recognition by 
international organizations, backed by research, by 
policymakers and others of the links that connect economic, 
social, and political stability and security with the wellbeing 
of women. The protection of women and girls in conflict in 
humanitarian settings should be a top priority for the United 
States and for our partners, especially since this is where the 
risk of sexual and gender-based violence is highest.
    But as we focus and prioritize the protections that must be 
in place, we need to also focus on ensuring that women are 
involved in preventing conflicts from breaking out in the first 
place and that they are active participants in resolving them 
because women play a key role in the prevention of conflict 
during and also post-conflict. Research now has proven that 
when women are able to meaningfully participate in peace 
negotiations and processes, there is a higher likelihood of 
lasting stability.
    Just to provide a few examples, one study found that peace 
agreements are 20 percent more likely to last at least 2 years 
and 35 percent more likely to last for more than 15 years when 
women are involved.
    Another study investigating 82 peace agreements and 42 
armed conflicts between 1989 and 2011 found that peace 
agreements with women signatories are linked with durable 
peace.
    Research by the Georgetown Institute for Women, Peace, and 
Security finds that women from civil society helped craft more 
comprehensive agreements in support of both ending war and 
building peace.
    So the research is clear. We need women to play a role at 
the negotiating table not only exchanging ideas and leading 
discussions, but also as implementers of peace agreements.
    Women in civil society tend to prioritize larger social 
issues beyond the cessation of hostilities. These include 
reconciliation, development, education, human rights, gender 
equality, justice, and democracy. Even with all of this 
evidence, significant gaps remain in both the protection of 
women and girls in conflict, as well as support for women's 
involvement in peace initiatives and security.
    It has been 19 years since the U.N. Security Council 
adopted the landmark resolution 1325 which calls on member 
states to increase women's participation at all levels of 
decision-making. Sadly, we have not seen significant progress 
on women's participation in those 19 years. Acknowledging that 
women should be part of these discussions is easy, but we have 
struggled to implement it.
    It is in the national security interest of the United 
States to have stable partners around the world who respect the 
fundamental rights of their citizens, including women. Gender 
equality, according to the Belfer Center, is associated with a 
lower propensity for conflict both between and within states, 
which is directly linked to U.S. security and global stability.
    Currently the ongoing peace talks in Afghanistan provide us 
with an opportunity for the U.S. to prove its dedication to 
women's participation in negotiations. And I hope we will do 
all we can to ensure that women have a seat at that table.
    In March 2019, more than 700 Afghan women gathered to 
advocate and make clear that while they support peace, they are 
fearful of losing their rights they have gained. The 
empowerment and equality of Afghan women are key to a more 
stable and sustainable Afghanistan.
    So I look forward to discussing the role of women in the 
peace talks in Afghanistan further during this hearing.
    But the bottom line is if 50 percent of your population is 
left out of the peace process and is left out of key leadership 
and decision-making roles, you are setting yourself up for 
failure. Women are the backbone of society and must play an 
active role in securing long-term peace and security.
    The ranking member.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, Senator Rubio, first of all, thank 
you for your leadership in convening this hearing. And I very 
much concur in your statement as to the importance of this 
hearing and U.S. leadership. This hearing advances the U.S. 
leadership in promoting gender equality and in promoting peace 
and security. So thank you very much for your leadership.
    It underscores the importance of women's equal 
participation in a country's economic, social, and political 
institutions. Here in the United States, we have seen the 
benefit firsthand by the increased numbers of women that are in 
the United States Senate. It has made an incredible difference 
in the strength of our democracy here in the United States.
    I particularly want to acknowledge Senator Shaheen. She is 
the only woman who serves on this committee, and her 
participation has made a very, very significant difference.
    And I think I need to underscore this because you serve on 
committees here because of your preference. You put down where 
you want to serve on a committee. It is tough enough for a 
woman to get elected to the United States Senate and to get 
reelected. And when you make your committee selections, you do 
that based upon, in part, what you think is best for your own 
political future on reelection and for the people you represent 
in your state.
    Senator Shaheen recognized the need to deal with global 
issues that affect the security of people around the world. It 
may not get her votes in New Hampshire, but it has certainly 
made a huge difference for the global security. So I thank her 
for her leadership on this committee. It has made a huge 
difference in the way that we see issues.
    In this case, she partnered with Senator Capito on the 2017 
Women, Peace, and Security Act, which was enacted. It sets up a 
U.S. strategy for participation of women to prevent conflicts 
and to resolve hostilities and to preserve peace and to develop 
U.S. leadership on these issues.
    Yesterday, we had, I thought, an extremely productive 
meeting with Ivanka Trump as the Trump administration presented 
to us their strategy for implementing the 2017 law that was 
passed by Congress. I agree with Senator Rubio. We now need to 
get additional information on that strategy. We have to make 
sure it is executed in a way that is effective in carrying out 
the goals that Congress intended. And we need to find out how 
Congress and the administration can work together in order to 
achieve those objectives.
    This follows the success we had on the WE Act, which 
provided economic empowerment for women through the use of our 
development assistance programs here in the United States.
    It is critically important that we incorporate women in 
conflict prevention, mediation, and resolution procedures as 
leaders and as decision-makers. We need to involve women in 
order to get effective results. Women and girls, as the 
chairman pointed out, have unique threats in conflict settings, 
from sexual violence to economic isolation. Policymakers must 
understand these risks to effectively incorporate necessary 
protection measures. Women must have a place at the table not 
just for gender equality. Women's participation in 
peacekeeping, combating violent extremism, and promoting 
security is absolutely critical to the success of these 
efforts.
    Numerous studies--as the chairman points out, that the 
success of a peace process with women participation is much 
higher because you are including the population, and you are 
providing the input that you need so that you can have lasting 
peace in an area.
    Numerous challenges today. The chairman mentioned several 
of those: civil wars in the Middle East, violence in Central 
America, terror and conflict in West Africa, the Rohingya 
issues in Asia, and the list goes on and on and on. If we are 
able to successfully deal with these conflict challenges, women 
must be part of the solution. That is particularly true in 
Afghanistan where we have been struggling with the peace 
process and we have not been able to effectively engage women 
in that process. We must do a more effective job if we are 
going to be able to bring peace to that troubled country which 
has been at war for so long.
    While the efforts like Women, Peace, and Security Act and 
WE Act are positive steps, there is substantially more that we 
have to do. Mr. Chairman, I will just mention one. You 
mentioned that we are approaching the 20th anniversary of the 
U.N. resolution 1325. Well, we are approaching the 100th 
anniversary of women's suffrage here in the United States. And 
it is long past time that the United States leads by their own 
example first and that we pass the Equal Rights Amendment. I 
have teamed up with Senator Murkowski with a resolution that 
would allow us to ratify the Equal Rights Amendment with one 
more state ratifying. And I would urge my colleagues that in 
this 100th year celebrating women's suffrage and promoting our 
leadership globally, let us get the Equal Rights Amendment in 
our Constitution.
    With that, I look forward to hearing from our witnesses.
    Senator Rubio. Thank you.
    And the chairman of the committee has joined us. I thank 
him for being here. This has been a big priority for him. I 
have seen his schedule. It looks like he is the Secretary of 
State. So we appreciate that. I know how busy he is and he 
needs to be in other places.
    Senator Risch. I am not paid like the Secretary of State.
    Senator Rubio. He says he is not paid like the Secretary of 
State.
    [Laughter.]
    Senator Rubio. Senator Shaheen. Because of the work she has 
done, I would like to give her an opportunity as well to have 
an opening statement.

               STATEMENT OF HON. JEANNE SHAHEEN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Shaheen. Well, thank you very much, Mr. Chairman 
and Senator Cardin. Thank you both for your very kind remarks.
    And thank you to all of the witnesses for being here today.
    As has been pointed out, earlier this week, Senator Risch 
hosted a roundtable where we had representatives of the 
administration come in and actually launch the Women, Peace, 
and Security national strategy. And Mr. Chairman, if I could 
introduce this for the record.
    Senator Rubio. Without objection.

    [The information referred to is located at the end of the 
hearing]

    Senator Shaheen. This is the strategy that gets included.
    And I was really please to join Senator Capito, Senator 
Risch, and Senator Cardin, as well as Ivanka Trump, who 
represented the White House, and the Deputy Secretary of State, 
John Sullivan, USAID Administrator Mark Green, and Acting Chief 
Management Officer at the Department of Defense, Lisa Hershman.
    What I was particularly impressed with was the commitment 
that each of them gave to implementing this strategy because as 
you all have pointed out, we are the first country in the world 
to legislatively put in place a law that says we have an 
official strategy that says women should be at the table in all 
stages of security situations from conflict prevention to peace 
building.
    And furthermore, we have actually funded that strategy. 
Last year, we provided $4 million to hire gender advisors in 
the Department of Defense.
    So we have already begun, and the challenge now, as 
everyone has said, is ensuring that we implement this strategy 
in a way that is effective and that recognizes the role that 
women have to play around the world.
    And I was pleased that both the chairman and ranking member 
mentioned Afghanistan as one of the opportunities that we have 
to encourage the participation of women in any peace 
negotiations. You know, if we look at what we have done in 
Afghanistan, the commitment of the United States and NATO to 
that country since the overthrow of the Taliban, probably the 
single most effective effort has been around empowering women. 
And we are at a point now where we have an opportunity to work 
with Afghanistan and to ensure that women continue to be a very 
important part of that country.
    There are, as the chairman pointed out, so many conflict 
areas around the world where having women participate will make 
a significant difference. I would like to add Syria, as you 
did, Mr. Chairman, when you talked about ISIS. As we look 
stability in Syria, women need to be a significant part of any 
resolution to the conflict there. And Ukraine is another one 
where women are a critical part of any resolution.
    And then there are countries where they have very 
intolerant policies towards women where they do not provide 
rights and protections that we are working hard to ensure in 
the United States. Saudi Arabia is one of those countries, and 
I think it is important for us, wherever we see that, to have 
an official policy on the part of the United States where we 
point out the challenges that those countries are facing and 
why it would be important to ensure rights for women.
    And just to add to what the chairman and Senator Risch 
said, what we know from the data--you know, it is not just 
because we think it is a good idea to include women. Obviously, 
we do think that. But the data shows that women's participation 
in peace processes, as our witnesses know, today makes a huge 
difference because any agreement from a peace negotiation is 35 
percent more likely to last at least 15 years. And civil 
society participation, including women's groups, makes a peace 
agreement 64 percent less likely to fail. And yet according to 
the Council on Foreign Relations, from 1990 to 2017, women made 
up only 2 percent of mediators and 8 percent of negotiators in 
peace processes.
    So we have an opportunity. We have legislation. We have an 
implementation strategy. We have a commitment. Now it is up to 
all of us to ensure that it gets implemented in a way that 
helps to empower women around the world.
    So thank you very much, Mr. Chairman, for this opportunity.
    Senator Rubio. Thank you.
    As we get to our testimony, I wanted to just--we have 
talked briefly. You have 5 minutes, but I would encourage you 
if you can abbreviate this so we can get into the questions 
because we have a vote at 11:30. It has been ongoing issue 
around here--these votes. They are cutting them off on time and 
so forth. And so we will lose attendance.
    By the way, we have got a conflict in the Senate right now 
in which these votes are like 15 minutes, but they are taking 
like 2 hours and messing up people's schedules. So yesterday 
the Efficiency Caucus, made up almost entirely of the Women's 
Caucus--I think we had a couple interlopers there at the end to 
join them--but basically sat at their seats and forced us to 
vote within the 10-minute time frame, led by the women of the 
Senate. So there is an example of the U.S. putting these 
practices to use.
    Anyway, I want to thank all of you. And I guess I will 
begin with you, Ms. Bottner. Thank you for being here and we 
will move right to left.

     STATEMENT OF ANDREA G. BOTTNER, SENIOR ADVISOR TO THE 
 INDEPENDENT WOMEN'S FORUM; FOUNDER, BOTTNER STRATEGIES, LLC, 
                        CHEVY CHASE, MD

    Ms. Bottner. Good morning, and thank you, Mr. Chairman, 
Ranking Member Cardin, Senator, Senator. Thank you for inviting 
me here today. It is an honor to appear before this 
distinguished committee and to join my fellow panelists.
    Today I am representing the Independent Women's Forum, a 
nonprofit dedicated to developing and advancing policies that 
enhance people's freedoms, choices, and opportunities.
    I will draw heavily from my past experience as the Director 
of the International Women's Issues Office at the U.S. State 
Department during the George W. Bush administration and my work 
since then with survivors of sexual assault, domestic violence, 
and rape.
    I want to thank Senator Shaheen particularly for her 
leadership regarding the Women, Peace, and Security Act. This 
bipartisan legislation that President Trump signed into law 
will ensure that the perspective voices and contributions of 
women will be considered and respected as conflict is addressed 
and as lasting peace is sought.
    Women around the world are disproportionately affected by 
violent conflict. Rape is used to demoralize entire 
communities. Sexual violence is used as a method of torture. It 
is estimated that one in three women worldwide have experienced 
physical and/or sexual violence in their lifetime. Practices 
like female genital mutilation occur in many countries around 
the globe, and young girls are often trafficked or married off 
at an unbelievably young age.
    Many societies still do not recognize the contributions 
that women can make to their economies, their educational 
systems, and their governments. But we do. And it is in 
America's best interest to continue supporting women's 
participation in peace processes and subsequent post-conflict 
reconstruction.
    We know that women being involved increases the likelihood 
a peace agreement will last longer than 15 years by as much as 
35 percent. We know that women not only need a seat at the 
table, but they have to exert real influence. When women are 
involved in peace negotiations, we see agreements that focus 
not just on an end to the fighting, but on building a lasting 
peace. We have seen success in many different countries around 
the world when women have been involved.
    For example, the 2016 Colombian peace agreement is often 
cited as a success story. I actually flew over the jungle with 
the only female Blackhawk helicopter pilot in the Colombian 
anti-narcotics police. This was before the agreement was 
reached. But I saw firsthand the grit and the bravery of the 
Colombian women.
    Today we watch anxiously as Afghanistan decides upon its 
country's future. Since the Taliban was toppled, millions of 
women have worked to create a more inclusive society and future 
for their country. The United States and the women of 
Afghanistan share a very special relationship that began in 
2002 with the creation of the U.S.-Afghan Women's Council. That 
council continues to thrive today and is an example of U.S. 
investment and support in the empowerment of Afghan women. The 
ongoing Afghan peace process is a real test of our commitment 
to the women of Afghanistan and indeed the world.
    As we move forward and seek to implement this new 
government strategy on Women, Peace, and Security, let us make 
sure we try to understand the local barriers to women's 
participation in each unique community, strengthen the role of 
civil society, develop public-private partnerships with faith-
based organizations and businesses that can improve the status 
of women, provide technical assistance and training to female 
negotiators and mediators and U.S. Government personnel, 
empower women and girls to be active participants in efforts to 
address terrorism and violent extremism.
    The United States occupies a unique place in the world and 
must continue to lead efforts on behalf of vulnerable and 
voiceless women. We have work to do in the months ahead to 
implement this administration's robust government-wide 
strategy, and I look forward to the work and thank you.
    [The prepared statement of Ms. Bottner follows:]

                Prepared Statement of Andrea G. Bottner

    Chairman Rubio and Ranking Member Cardin, thank you for the 
opportunity to be here and discuss the critical importance of involving 
women in the advancement of peace and security.
    Today, I'm representing the Independent Women's Forum, a nonprofit 
dedicated to developing and advancing policies that enhance people's 
freedom, choices, and opportunities.
    I draw heavily from my past experience as the Director of the 
International Women's Issues Office at the U.S. State Department during 
the George W. Bush administration and my work with survivors of sexual 
assault, domestic violence and rape.
    The Women, Peace and Security Act of 2017 ensures that the United 
States will be a global leader in promoting the participation of women 
in conflict prevention, management, and post-conflict relief efforts.
    I enthusiastically commend the U.S. Congress and President Trump 
for making this the law of our land.
    This important legislation recognizes that including women in 
conflict prevention and resolution will promote more inclusive and 
democratic societies. The addition of women to these discussions is 
critical to country and regional stability. It is within the national 
interest of the United States to ensure the participation of women and 
a true demonstration of our global leadership.
    The participation of women in peace processes has contributed to 
increased success in reaching agreements and the subsequent longevity 
of those agreements.
    According to studies conducted by the United Nations, when women 
have a substantive role in peace negotiations the likelihood the 
agreement will last beyond 15 years increases by as much as 35 percent.
    However, it is not always easy to insert women into the peacemaking 
process. Between 1990 and 2017, according to the United Nations 
Executive Director of U.N. Women, women constituted only 2 percent of 
mediators, 8 percent of negotiators, and 5 percent of witnesses and 
signatories in major peace processes.
    Only 3 out of 11 agreements signed in 2017 contained provisions on 
gender equality. Of 1,500 agreements signed between 2000 and 2016, only 
25 raise the role of women's engagement in the implementation phase.
    These statistics underscore the point that the Women, Peace, and 
Security Act is desperately needed. We need to examine the barriers and 
challenges that keep women from participating fully in their societies 
and work to eradicate them.
    Women around the globe are disproportionately affected by violent 
conflict. Women and girls face violence as they flee armed conflict and 
as they strive to survive in a new place.
    Rape is used as a weapon of war and other forms of sexual violence 
occur before, during and after conflict. According to the United 
Nations, there are eight different forms of conflict-related sexual 
violence: rape, sexual slavery, prostitution, forced pregnancy, forced 
abortion, enforced sterilization, forced marriage, and other forms of 
sexual violence of comparable gravity.
    Another human rights abuse that women and girls face is female 
genital mutilation (FGM). This is any procedure involving the partial 
or total removal of the external female genitalia or other injury to 
the female genital organs. FGM is often performed on girls between the 
ages of 4 and 14 to ensure their virginity until marriage.
    The World Health Organization reports that FGM has no health 
benefits and can cause serious and often lifelong physical and 
psychological health problems. It is estimated that 200 million women 
worldwide have undergone this procedure.
    American women should note that while this is most predominant in 
Africa, the Middle East and East Asia, it is estimated that over 
500,000 young women and girls are at risk of FGM in the United States.
    We need to be concerned about this rising threat and work to raise 
awareness this practice will not be tolerated in the United States.
    Gender-based violence exists in epidemic proportions around the 
world, whether it occurs in the form of domestic violence, the 
trafficking of human beings, or in the context of war and conflict, 
such violence and coercion has devastating effects on women's personal 
health, the families, communities and emerging societies.
    A continued emphasis on fighting these atrocities needs to continue 
if we want to make sure women are included in peace and security 
discussions.
    There are many reasons why the involvement of women can change the 
outcome. These reasons have to do with how women are viewed and how 
they naturally interact with others. Women tend to be more 
collaborative in their approach to problem solving.
    Collaboration demands working with others and would naturally 
include those of different cultural, religious and other groups.
    In most societies around the world, women and men still play very 
different roles in their families and communities. Often, women are not 
as directly associated with the power structures and are viewed as more 
transparent and honest. They can be viewed as more impartial than their 
male counterparts and therefore, more trusted.
    When women show courage and stand up for their rights, it can make 
a huge public impact. An example of this bravery is the story of the 
``Abuelas'' of Sepur Zarco.
    Guatemala endured a decades long civil war while indigenous women 
were systematically raped and enslaved by the military in the small 
community of Sepur Zarco. From 2011-2016, 15 women survivors fought for 
justice in the highest court of Guatemala.
    The case resulted in the conviction of two former military officers 
of crimes against humanity and granted reparation measures to the women 
survivors and their community.
    Another example of the successful involvement of women in the peace 
process is the Colombian Peace Agreement. In 2016, the Columbian 
government and the Revolutionary Armed Forces (FARC) came to a peace 
agreement after 50 years of armed civil conflict.
    The peace agreement set an international example for women's 
involvement in peace building. When negotiations began in 2012, only 1 
of the 20 negotiators was female. Civil society took note, organized a 
summit about women and peace and a few years later about 20 percent-30 
percent of the negotiators were female.
    The involvement of women in the Colombian story made a large impact 
in many different ways. The women helped broaden the agenda, negotiated 
local cease-fires, increased accountability and helped build public 
support.
    In 2008, I had the honor of flying with Captain Erika Pedraza 
Murillo, who was the only female Blackhawk helicopter pilot with 
Colombia's anti-narcotics police. Her strength and courage reflect the 
traits of so many Colombian women.
    We have an ongoing peace process effort in Afghanistan today. Since 
the Taliban government fell, millions of women have voted in local and 
national elections.
    In 2002, the United States Afghan Women's Council was created as a 
Presidential Initiative under President George W. Bush. This effort was 
a joint U.S.-Afghan effort to promote public-private partnerships and 
mobilize resources to ensure that women can gain the skills and 
stability they had been deprived of by the Taliban.
    An example of the progress made by Afghan women with the support of 
the United States is the Afghan Fulbright Program. This educational 
program offers grants to qualified Afghan graduate students to study at 
the graduate level in the United States.
    In 2002, there were no women qualified to apply, due to years of 
being denied access to education. Today, half the applicants are women 
and the Afghan Fulbright Program is one of the largest in the world. 
Coincidentally, the current Afghan Ambassador to the United States, 
Roya Rahmani is a Fulbright alumnus.
    The Council continues to thrive today.
    Since 2010, women have played a role seeking to end the conflict. 
They have been appointed to the High Peace Council, negotiated with 
Taliban fighters and continued to demand women are included in the 
ongoing peace negotiations.
    The United States has strong influence with Afghanistan and needs 
to use that leverage to ensure that women are involved in peace 
negotiations in Afghanistan. Our actions in support of Afghan women 
will show the strength of our commitment to the world.
    As we view today's global challenges and consider the robust 
involvement of women, we should continue to promote a few effective 
strategies. We need to seek the input from women about their societies 
before conflict occurs. We have to support women's leadership in their 
communities and when conflict occurs, give them equal access to aid.
    We recognize women and girls are at a disproportionate risk of 
violence during conflict and must protect them and seek justice for 
acts committed against them. We can work to bolster the number of women 
in law enforcement and the military. We can provide support to female 
negotiators, mediators, and peace builders.
    We can support women's peace-building organizations and encourage a 
robust civil society. We can recognize the value brought by faith-based 
organizations, non-governmental organizations and businesses, as we 
work to identify effective ways to empower women.
    The United States has a unique role in our world. We must continue 
to lead efforts on behalf of voiceless and vulnerable women, especially 
those in conflict situations working desperately for peace.
    We know women are essential to the development of open and 
prosperous societies. When we invest in women, we are promoting peace 
and stability. When we attack poverty, fight violence, combat injustice 
and work for the empowerment of women, we are changing the very nature 
of society.
    It is in America's best interest to always remember the importance 
of women, as we work to implement the United States Strategy for Women, 
Peace and Security.

    Senator Rubio. Thank you.
    Ms. Bigio.

STATEMENT OF JAMILLE BIGIO, SENIOR FELLOW FOR WOMEN AND FOREIGN 
      POLICY, COUNCIL ON FOREIGN RELATIONS, WASHINGTON, DC

    Ms. Bigio. Thank you, Chairman Rubio, Ranking Member 
Cardin, Senator Shaheen. Thank you for the opportunity to 
testify before you today.
    Let me begin by applauding the bipartisan lawmakers, led in 
the Senate by Senator Shaheen and Senator Capito, for coming 
together in 2017 to pass the Women, Peace, and Security Act. I 
also welcome as a positive first step the Women, Peace, and 
Security Strategy launched this week by the Trump 
administration.
    Both the law and the new strategy recognize that including 
women in peace and security efforts is not just a matter of 
fairness. It is a strategic imperative. Parties are more likely 
to reach sustainable agreements. Women's participation 
strengthens the security sector. Women can be effective 
partners in countering terrorism. And we also know that 
countries are more prosperous and stable as the gender gap 
closes. Stability improves as more women participate 
politically and as women become more empowered at the household 
level.
    Despite this evidence, we see that women are often excluded 
from peace and security efforts. As the Council on Foreign 
Relations has found, women comprised 2 percent of mediators and 
less than 8 percent of negotiators between 1992 and 2017. They 
are routinely under-represented in peacekeeping operations and 
security forces. Local women's groups receive just .4 percent 
of the aid to fragile states, and policymakers rarely enlist 
women's participation in efforts to combat radicalization.
    Even with few formal roles and with many barriers for civil 
society to influence peace and security efforts, women continue 
to make valuable contributions. But it is not without a cost. 
Many face significant and targeted harassment and violence. And 
in fact, we see that peacemakers and human rights activists 
promoting security are themselves under growing attack with the 
rise in political violence targeting women.
    In Sudan's recent protests, women have accounted for up to 
70 percent of the protesters, but first the regime and now the 
military are using sexual violence as one of their deliberate 
tactics to terrorize civilians.
    Sexual violence and human trafficking are not simply gross 
violations of human rights, they are also security challenges. 
Wartime rape fuels displacement, weakens governance, and 
destabilizes communities. Conflict, weak rule of law, and 
large-scale displacement also expose civilians, including women 
and girls to increased risk of trafficking from Iraq to Burma 
to Venezuela. Yet, prevention efforts are plagued by 
insufficient training for security officials, limited 
accountability, and resource gaps.
    Just as one example, while one in five women who have fled 
their homes experience sexual violence, just .1 percent of 
humanitarian funding addresses violence against women and 
girls.
    Conflict further limits women's and girls' access to 
education, health care, economic opportunities. As an example, 
9 of the top 10 countries with the highest rates of child 
marriage are affected by conflict.
    So the Women, Peace, and Security Act envisions that the 
United States is a global leader in promoting the meaningful 
participation of women. But there are many missed opportunities 
where women could have improved the effectiveness of U.S. 
operations if we had included them.
    I will touch on a few suggestions here based on gaps I 
observed while helping to draft the U.S. Government's first-
ever policy on Women, Peace, and Security issues.
    From bilateral talks in Afghanistan and Yemen to serious 
constitutional commitments and beyond, the U.S. Government 
should advocate for women's participation. It is easier and 
quicker to just negotiate with the men with the guns, but a 
more inclusive process lends to a longer lasting agreement.
    And then to strengthen its own teams and to lead by 
example, the U.S. Government should likewise ensure that its 
delegations have women represented.
    The U.S. Government should allocate more resources to 
women's groups. They are rarely considered relevant security 
partners, an omission that overlooks benefits of women's 
participation and the contributions of half the population.
    Agencies are now developing the congressionally mandated 
implementation plans for the new strategy. In doing so, they 
should better connect their commitments to supporting women's 
contributions to their broader security policies and programs. 
It will make them more effective. That is from peacekeeping to 
building security partners, capacity to combating the sources 
of terrorist support. Congress and this committee can hold the 
administration accountable for ensuring its efforts to advance 
national security, invest in an important but overlooked 
strategy, the inclusion of women. It is the right thing to do, 
but it also holds the potential to significantly improve 
security around the world.
    Thank you, Mr. Chairman, for this opportunity to testify.
    [The prepared statement of Ms. Bigio follows:]

                  Prepared Statement of Jamille Bigio

    Chairman Rubio, Ranking Member Cardin, distinguished members of the 
committee, thank you for the opportunity to testify before you today 
about advancing women's roles in peace and security.
    Let me begin by applauding the bipartisan lawmakers--led in the 
Senate by Senator Jeanne Shaheen (D-NH) and Senator Shelley Moore 
Capito (R-WV)--who in 2017 came together to pass the Women, Peace, and 
Security Act, the most comprehensive law in the world to support 
women's meaningful participation in efforts to prevent and resolve 
conflict. This week, the Donald J. Trump administration fulfilled one 
of the law's key requirements by launching a Women, Peace, and Security 
Strategy, laying out an ambitious agenda to ensure women are part of 
peace negotiations, security sector forces, and post-conflict 
transitions, while addressing the effects of conflict on women and 
girls.
    Including women in peace and security efforts is not just a matter 
of fairness--it is a strategic imperative. Research suggests that when 
women and civil society groups participate in a peace process, the 
resulting agreement is 64 percent less likely to fail and 35 percent 
more likely to last at least 15 years.\1\ As security and peacekeeping 
officials, women provide insights and information that can be mission-
critical to stability efforts.\2\ They also improve dispute resolution: 
women in police forces are less likely than male counterparts to use 
excessive force and far more likely to de-escalate tensions and build 
trust with the communities they serve, thereby advancing stability and 
the rule of law.\3\ Because of their distinctive access and influence, 
women are crucial antiterrorism messengers in schools, religious 
institutions, social environments, and local government.\4\ Countries 
are more prosperous and stable as the gender gap closes, with stability 
improving as more women participate politically and as women become 
more empowered at the household level.\5\ On the other hand, allowing 
gender inequality and violence against women to persist increases the 
risk of instability and conflict.\6\
    Despite ample evidence demonstrating the importance of women's 
involvement, they are often excluded from peace and security efforts. A 
Council on Foreign Relations report tracking women's participation in 
peace processes found that between 1992 and 2017, women comprised less 
than 5 percent of mediators and less than 10 percent of negotiators 
around the world.\7\ Women are routinely underrepresented in 
peacekeeping operations, even though their participation has been shown 
to improve mission effectiveness and advance stability: in 2017, only 4 
percent of U.N. military peacekeepers and 10 percent of U.N. police 
personnel were women.\8\ And while local women's groups lead grassroots 
efforts to prevent and resolve conflicts, they received just 0.4 
percent of the aid to fragile states from major donor countries in 
2012-2013.\9\ U.S. policymakers rarely enlist women's participation in 
efforts to combat radicalization--an omission that forfeits their 
potential contributions as mitigators against extremism.
    Although women are underrepresented in today's peace processes, 
women continue to make valuable contributions to addressing violence 
and securing peace at the grassroots level in their countries.\10\ 
Women organize across cultural and sectarian divides and broaden the 
agenda, raising issues in negotiations that help societies reconcile 
and recover, like political and legal reforms, social and economic 
recovery priorities, and transitional justice concerns. They stage mass 
action, employing visible and high-profile tactics to pressure parties 
to begin or recommit to peace negotiations, as well as to sign accords. 
Drawing on their different social roles and responsibilities, they 
access critical information that can inform negotiating positions and 
areas of agreement.
    In Colombia, for example, women improved the security situation in 
local communities by mediating local cease-fires, convincing guerrillas 
to lift roadblocks preventing the passage of people, food, and 
medicine, and negotiating the release of hostages. Representing 33 
percent of the negotiators in the final rounds of talks, women ensured 
the agreement addressed some of the primary grievances of affected 
communities, including land restitution and the right to justice and 
reparations for victims.\11\
    In Syria, women facilitated humanitarian access in areas aid 
convoys had difficulty reaching, secured the release of detainees, and 
have done the work local governments should do, from staffing field 
hospitals and schools to distributing food and medicine to forming an 
all-female police brigade that has access to areas that their male 
counterparts do not and providing families with critical services. Yet 
they remained underrepresented throughout the U.N.-led peace process 
starting in 2012--in the 2017 talks, women comprised 15 percent of 
negotiators.\12\
    In Afghanistan, women negotiated directly with insurgent leaders to 
support the reintegration of demobilized Taliban fighters into local 
communities, mobilized local support for the peace process, including 
by encouraging local insurgents to participate in talks, and worked in 
schools to counter extremist narratives. They also broaden the agenda, 
as Wazhma Frogh, a member of the Afghan Women's Network, recounted: 
``when women engage in the process, we talk about the needs of the 
communities, about justice, about schools, about health, about 
education. It becomes about communities and issues, not just about men 
deciding which power positions to hold.''\13\ Yet in 23 rounds of 
Afghan talks between 2005 and 2014, on only two occasions were Afghan 
women at the table.\14\
    Women overcome social and economic inequalities to assume leading 
roles in nonviolent campaigns, from Chile to Liberia to the Palestinian 
territories. Nonviolent movements--driving social, political, and 
economic change--are nearly twice as successful as violent ones at 
achieving their objectives.\15\ In the recent mass protests in Sudan 
that ousted Omar al-Bashir, women accounted for up to 70 percent of the 
protestors, and one woman--Alaa Salah--became a symbol of the Sudanese 
revolution when an image of her leading protestors in a chant went 
viral on social media.
    Women are also on the front lines when it comes to preventing and 
countering violent extremism in their communities. Women are well 
positioned to recognize early signs of radicalization because attacks 
on their rights and physical autonomy are often the first indication of 
a rise in fundamentalism.\16\ Female security officials gather critical 
intelligence about potential terrorism threats, while the prominent 
role that many women play in their families and communities renders 
them especially effective in diminishing the ability of extremist 
groups to recruit and mobilize.\17\ Women-led civil society groups are 
particularly critical partners in mitigating violence, though 
counterterrorism efforts too often fail to enlist them.
    As women seek to contribute to peace in their countries, they face 
systematic harassment and violence. The peacemakers and human rights 
activists promoting security are themselves under growing attack. Twice 
as many acts of political violence targeting women have been reported 
during the first quarter of 2019 than in the first quarter of 2018. And 
many of these acts take place in conflict-affected countries: the 
Democratic Republic of Congo, Somalia, Syria, Sudan, and Yemen all rank 
in the top 10 countries for levels of violence targeting women.\18\ 
Take the example of women protesting on Sudan's streets in the last few 
months: the regime, before it was overthrown, ordered soldiers on the 
ground to systematically beat and rape women--a strategy continued by 
military officials now in charge, with paramilitaries using sexual 
violence as a deliberate tactic to terrorize civilians.
    Sexual violence and human trafficking are not simply gross 
violations of human rights--they are also security challenges. Wartime 
rape fuels displacement, weakens governance, and destabilizes 
communities.\19\ Conflict, weak rule of law, and large-scale 
displacement also expose civilians--including women and girls--to 
increased risk of trafficking, including forced labor, child 
soldiering, sex trafficking, and forced marriages. From Iraq to Myanmar 
to Venezuela, refugee women and girls are at heightened risk of sexual 
exploitation and trafficking.\20\ Yet current security-sector efforts 
to address sexual violence and human trafficking in conflict are 
inadequate, plagued by insufficient training for security officials, 
limited accountability through national and international judicial 
systems, and resource gaps. For example, while one in five women who 
have fled from their homes go on to experience sexual violence, only 
0.1 percent of humanitarian funding addresses violence against women 
and girls.\21\
    Conflict further limits women's and girls' access to education, 
healthcare, and economic opportunities, which contributes to cycles of 
exploitation and poverty; in humanitarian contexts, for example, 
adolescent girls are two-and-a-half times more likely to be out of 
school than their male peers. Nine of the top 10 countries with the 
highest rates of child marriage are affected by conflict; crisis 
situations can exacerbate income inequality and poverty rates, leading 
families to become more desperate to stay financially afloat.\22\ 
Yemen's conflict, for example, prompted an increase in the number of 
child marriages: in 2017, more than two-thirds of girls were married 
before their 18th birthday, compared to half before the conflict 
escalated.\23\
    U.S. government policy and programs pay little attention to the 
role of women, despite their contributions to peace and security. The 
Women, Peace, and Security Act envisions the United States as a global 
leader in promoting the meaningful participation of women in conflict 
prevention, management, and resolution, and post-conflict relief and 
recovery efforts. The Trump administration's new strategy is a positive 
step, but there remain many missed opportunities where women could have 
improved the effectiveness of U.S. operations and advanced global 
security. I've outlined here a few suggestions based on the gaps I 
observed while helping to draft the U.S. government's first-ever policy 
on women, peace, and security issues, and then overseeing its 
implementation from the National Security Council staff.
    To strengthen its peace and security efforts, the U.S. government 
should pursue the following steps:
    In any peace or transition process in which it is involved--from 
bilateral talks in Afghanistan and Yemen to Syria's constitutional 
committee and beyond--the U.S. government should advocate that women 
represent at least 30 percent of negotiating bodies and mediating 
teams, a threshold that research suggests affords a critical mass to 
enable women's influence. To strengthen its own teams and to lead by 
example, the U.S. government should likewise ensure that its 
delegations have at least 30 percent women.
    The U.S. government should allocate more resources to support 
women's contributions in efforts to prevent and resolve conflicts and 
to counter terrorism. Women's groups are rarely considered relevant 
security partners, and their work remains chronically underfunded. 
Investment by the United States in this area has been limited to small 
grants or stand-alone programs, an omission that overlooks the benefits 
of women's participation and the contributions of half the population. 
Now is the time to scale successful women-led initiatives and 
incorporate them into core peace and security programs and budgets.
    Agencies are now developing the Congressionally-mandated 
implementation plans, which can translate the lofty goals put forth in 
the administration's new strategy into diplomatic, development, and 
defense efforts abroad. In doing so, they should improve broader 
security initiatives by ensuring they draw on women's contributions. 
For example, as the U.S. government pushes peacekeeping operations to 
be more effective and less costly, it should help countries to address 
the barriers that limit the pipeline and deployment of female 
peacekeepers. To strengthen security forces around the world, the U.S. 
government should increase security training opportunities for female 
officials. Courses like the International Military Education and 
Training program or the Antiterrorism Assistance program should double 
within 3 years the total number of women receiving training.
    To combat the sources of terrorist support, the director of 
national intelligence should produce a National Intelligence Estimate 
and form an operational task force on the relationship between women, 
violent extremism, and terrorism, including an analysis of women's 
roles as recruiters, sympathizers, perpetrators, and combatants. The 
intelligence community should require data collection of indicators 
related to women's equality and autonomy as potential early warning 
signs of growing fundamentalist influence. And given the rise in 
women's participation in extremist groups, the United States can no 
longer afford to ignore the ways in which women can strengthen 
counterterrorism efforts.
    To discourage the use of sexual violence in conflict by militaries, 
police, and armed groups, the U.S. government should--for example, 
through its Group of Seven (G7) presidency next year--encourage partner 
countries to condition bilateral assistance and weapon transfers to 
foreign militaries on the security units' human rights record, 
including with respect to sexual violence. Such a commitment would be 
modeled on the U.S. Leahy Law (1997) and Section 502B of the Foreign 
Assistance Act, which prohibits the use of funds for units of foreign 
security forces that have committed gross violations of human rights. 
In parallel, the Departments of State and the Treasury should use 
sanctions to apply a travel ban and asset freeze on human traffickers.
    To respond effectively to modern security threats and address the 
failure of traditional peacemaking methods, the U.S. government should 
ensure that the rising generation of American diplomats and security 
professionals recognizes that women's participation in security efforts 
around the world advances U.S. stability and should nominate or appoint 
the necessary leadership to guide the government's policy and programs, 
including an Ambassador-at-Large for Global Women's Issues and a full-
time senior-ranking coordinating position at the Department of Defense.
    The success of the Women, Peace, and Security Act and of the 
administration's new strategy can only be measured through action. 
Congress and this Committee can work to hold the administration 
accountable for ensuring that its efforts to advance national security 
invest in an important but overlooked strategy: the inclusion of women. 
It's the right thing to do--and holds the potential to significantly 
improve stability around the world.
    Thank you, Mr. Chairman, for this opportunity to testify.

--------------------
Notes

    \1\ Laurel Stone, ``Quantitative Analysis of Women's Participation 
in Peace Processes,'' in Annex II in Marie O'Reilly et al., 
``Reimagining Peacemaking: Women's Roles in Peace Processes,'' 
International Peace Institute, June 2015, p. 34; Desiree Nilsson, 
``Anchoring the Peace: Civil Society Actors in Peace Accords and 
Durable Peace,'' International Interactions 38, No. 2, April 2012; 
Marie O'Reilly et al., ``Reimagining Peacemaking: Women's Roles in 
Peace Processes,'' International Peace Institute, June 2015; Thania 
Pfaffenholz, Darren Kew, and Anthony Wanis-St. John, ``Civil Society 
and Peace Negotiations: Why, Whether and How They Could Be Involved'' 
(background paper, Oslo Forum, 2006).
    \2\ Louise Olsson and Johan Tejpar, eds., Operational Effectiveness 
and U.N. Resolution 1325--Practices and Lessons From Afghanistan 
(Stockholm: FOI, 2009), 117, 126-127; Tobie Whitman and Jacqueline 
O'Neill, ``Attention to Gender Increases Security in Operations: 
Examples From the North Atlantic Treaty Organization (NATO),'' The 
Institute for Inclusive Security (April 2012): 7-13.
    \3\ Kim Lonsway et al., ``Men, Women, and Police Excessive Force: A 
Tale of Two Genders; A Content Analysis of Civil Liability Cases, 
Sustained Allegations, and Citizen Complaints,'' National Center for 
Women and Policing, April 2002; Katherine Spillar, ``How More Female 
Police Officers Would Help Stop Police Brutality,'' Washington Post, 
July 2, 2015; ``Operational Effectiveness and U.N. Resolution 1325--
Practices and Lessons From Afghanistan.''
    \4\ The Role of Civil Society in Preventing and Countering Violent 
Extremism and Radicalization That Lead to Terrorism: A Focus on South-
Eastern Europe (Vienna: Organization for Security and Cooperation in 
Europe, 2018).
    \5\ Jacqueline H.R. DeMeritt et al., ``Female Participation and 
Civil War Relapse,'' Civil Wars 16, No. 3, 2014; Women's Role in 
Countering Terrorism, Before the Subcommittee on Terrorism, 
Nonproliferation, and Trade, 115th Cong. (2018) (statement of Valerie 
M. Hudson, Professor and George H.W. Bush Chair at Texas A&M 
University).
    \6\ Valerie M. Hudson et al., ``The Heart of the Matter: The 
Security of Women and the Security of States,'' International Security 
33, No. 3, 2008/2009, pp. 7-45; Mary Caprioli, ``Primed for Violence: 
The Role of Gender Inequality in Predicting Internal Conflict,'' 
International Studies Quarterly 49, No. 2, 2005, pp. 161-178; Erik 
Melander, ``Gender Equality and Intrastate Armed Conflict,'' 
International Studies Quarterly 49, No. 4, 2005, pp. 695-714; Valerie 
M. Hudson et al., Sex and World Peace (New York: Columbia University 
Press, 2010); James D. Fearon, ``Governance and Civil War Onset,'' 
Stanford University, August 2010.
    \7\ Women and Foreign Policy Program, ``Women's Participation in 
Peace Processes,'' Council on Foreign Relations, accessed June 12, 
2019.
    \8\ ``Report of the Secretary-General on Women, Peace and 
Security,'' U.N. Security Council, October 2018.
    \9\ ``Financing U.N. Security Council Resolution 1325: Aid in 
Support of Gender Equality and Women's Rights in Fragile Contexts,'' 
OECD DAC Network on Gender Equality, March 2015.
    \10\ Jamille Bigio and Rachel Vogelstein, How Women's Participation 
in Conflict Prevention and Resolution Advances U.S. Interests (New 
York: Council on Foreign Relations, 2016).
    \11\ Virginia M. Bouvier, ``Gender and the Role of Women in 
Colombia's Peace Process,'' U.N. Women, March 4, 2016; Women and 
Foreign Policy Program, ``Women's Participation in Peace Processes: 
Colombia,'' Council on Foreign Relations, accessed June 12, 2019.
    \12\ Nil Koksal, ``Syrian feminists fight for say in postwar peace 
talks,'' CBS News, December 1, 2017.
    \13\ Wazhma Frogh, ``Women and the Afghan Peace Process: A 
Conversation with Wazhma Frogh,'' Women Around the World (blog), May 
13, 2019.
    \14\ ``Behind Closed Doors,'' Oxfam (November 2014).
    \15\ Marie A. Principe, ``Women in Nonviolent Movements,'' United 
States Institute of Peace, January 2017.
    \16\ Karima Bennoune, Your Fatwa Does Not Apply Here: Untold 
Stories From the Fight Against Muslim Fundamentalism (New York: W. W. 
Norton, 2013); Marie O'Reilly, ``Inclusive Security and Peaceful 
Societies: Exploring the Evidence,'' PRISM 6, No. 1 (2016); Valerie 
Hudson et. al, ``The Heart of the Matter: The Security of Women and the 
Security of States,'' International Security 33, No. 3 (2008/2009).
    \17\ ``Preventing Extremism in Fragile States: A New Approach,'' 
Task Force on Extremism in Fragile States, U.S. Institute of Peace 
(February 2019).
    \18\ Roudabeh Kishi, Melissa Pavlik, and Hilary Matfess, `Terribly 
and Terrifyingly Normal:' Political Violence Targeting Women,'' ACLED 
(May 2019).
    \19\ Jamille Bigio and Rachel Vogelstein, Countering Sexual 
Violence in Conflict (New York: Council on Foreign Relations, 2017).
    \20\ ``The Time to Act Is Now: Addressing Risks of Exploitation for 
Venezuelan Women and Children Seeking Refuge,'' Women's Refugee 
Commission (April 2019; Julia Zulver, ``At Venezuela's border with 
Colombia, women suffer extraordinary levels of violence,'' Washington 
Post, February 26, 2019.
    \21\ ``Where's the Money? How the Humanitarian System is Failing to 
Fund an End of Violence Against Women and Girls,'' International Rescue 
Committee (June 2019).
    \22\ Child Marriage: Ending Child Marriage Progress and Prospects 
(2014).
    \23\ ``Falling Through the Cracks: The Children of Yemen,'' UNICEF 
(March 2017).

    Senator Rubio. Thank you.
    Ms. Kakar.

    STATEMENT OF PALWASHA L. KAKAR, SENIOR PROGRAM OFFICER, 
 RELIGION AND INCLUSIVE SOCIETIES, UNITED STATES INSTITUTE OF 
                     PEACE, WASHINGTON, DC

    Ms. Kakar. Thank you. Chairman Rubio, Ranking Member 
Cardin, Senator Shaheen, Senator, and members of the 
subcommittee, thank you for the opportunity to testify.
    I have submitted my testimony for the record, and I will 
try and summarize and tell a story.
    The timing of this hearing is especially important given 
the escalation in violence in Afghanistan over the past few 
weeks and the potential peace process.
    I am a senior program officer on religion and inclusive 
societies at the U.S. Institute of Peace, although my views 
that I express here are my own. I focus at USIP on a 
comparative country approach analyzing women, religion, and 
peace-building in countries, including Afghanistan, Pakistan, 
Libya, Syria, Iraq, Burma, Philippines, among others.
    With 10 years of experience working in Afghanistan on 
women's inclusion and religious engagement, my current focus at 
USIP is based on my experiences in Afghanistan where I have 
found case after case of women, especially elderly religious 
women, who have successfully negotiated with the Taliban. These 
women have brokered local ceasefires, helped to release 
hostages, and even negotiated to keep girls' schools open.
    Today's hearing also comes at an opportune moment with the 
release earlier this week of the U.S. Strategy on Women, Peace, 
and Security. Thank you for mentioning the possibility for this 
strategy to be applied to the peace process the United States 
has started with the Taliban in Afghanistan. I cannot stress 
enough how much Afghan women are worried about the U.S.-Taliban 
talks and how the outcome might negatively impact their gains 
made in women's empowerment in Afghanistan.
    I would like to highlight three main points for the 
subcommittee as you consider advancing women's roles in peace 
and security in the case of Afghanistan.
    Number one, Afghan women are essential to the success and 
sustainability of a peace process. And as you all have 
mentioned, it is from the beginning of the peace talks to the 
end and the monitoring of agreements that it is important for 
their inclusion.
    Number two, Afghan women are adamant in calling for the 
peace process that protects their rights and the gains made 
over the last 18 years. They have started a campaign, 
#AfghanWomenWillNot
GoBack, which is now 2 million strong.
    Number three, Afghan women, young, old, activists, 
religious scholars, and civil society, along with many men in 
the same fields, called for an immediate ceasefire and an end 
to the bloodshed in Afghanistan. They have also started a 
campaign, #Ceasefire
ForPeace. Afghan women are urging the international community, 
particularly the United States, to work with the Afghan 
Government to strengthen security and rule of law, to continue 
funding the Afghan National Security Forces and the police, and 
provide funding for the protection of women and girls. They 
support a responsible and gradual withdrawal of U.S. troops 
from Afghanistan to ensure security and stability prevail on 
the ground.
    In the face of all the challenges Afghan women have seen, 
they have made gains in the past 18 years. They have been 
involved in key successful peace settlements at national and 
local levels. Afghan women also have the skills and technical 
expertise in negotiation, mediation, constitutional reform, 
transitional justice, and ceasefire monitoring. Currently, 
Afghan women are well organized and have taken concrete 
initiatives towards the peace process.
    Last year, the largest Afghan women's coordination body, 
the Afghan Women's Network, worked with Afghanistan's First 
Lady, Mrs. Rula Ghani, and her office to coordinate nationwide 
consultations with women in all 34 provinces of Afghanistan. 
That effort culminated this year in a Declaration of Afghan 
Women's National Consensus for Peace that captured women's 
perspectives across the country.
    Leading up to the intra-Afghan and U.S.-Taliban talks in 
Moscow and Doha, the Afghan Women's Network consulted with 
their members and organizations beyond from all the provinces 
of Afghanistan to construct a declaration of women's demands 
and their redlines and prepare a delegation of 41 women from 
diverse backgrounds of the political spectrum, including the 
government, to participate in peace talks. They were well 
prepared to participate, but the male political party members 
and government had not come to an agreement on substance or 
participation. When the process for developing a delegation 
broke down between the male political opposition party members 
and the government in Kabul, it was the women of the Afghan 
Women's Network who went to all the groups to urge the parties 
to come back to the table to move the peace process forward 
while conveying women's demands. Eventually the parties were 
able to come together to draw up a list of delegates and move 
forward on the process before it fell through on the Doha side.
    However, women's civil society organizations have not given 
up hope on the peace process. They have come together from 
across geographic, ethnic, and religious divides to put 
together a diverse roster of women's civil society experts that 
the U.S. or other international mediators could draw upon for 
participation and expertise in the peace talks.
    Looking back, Afghan women have been part of successful 
peace processes throughout Afghanistan's history. They have had 
a role in the Bonn process, which included the formation of 
important institutions like Afghanistan's Independent Human 
Rights Commission and the Ministry of Women's Affairs.
    Let me end with a story about a woman from a village in 
Helmund in the south of Afghanistan. There are many more like 
her. To protect her identity, I will call her Bibi Halima. She 
is a Koran teacher, and through her knowledge of religion and 
her skills at conflict resolution, many families have called on 
her to help resolve domestic disputes within families and 
across families. An elderly woman with religious knowledge, she 
is well respected.
    One day a family came to her distraught and seeking her 
help. Their daughter had sought to elope with her lover, and in 
searching for their daughter, they found out that she had been 
captured by the Taliban. They pleaded with Bibi Halima to 
intercede and negotiate with the Taliban for their daughter's 
release. Bibi Halima agreed and went to the Taliban checkpoint 
to ask about the runaway girl. The Taliban were planning to 
stone both the girl and the boy publicly and make an example of 
them. Bibi Halima calmly talked to the Taliban commander, 
requesting that she see the girl and to take her back to her 
family. She worked to find common values that they shared 
through scripture and built on their understanding of respect 
and forgiveness to convince them to allow her to escort the 
girl back to her family. Eventually she was allowed to stay 
with the girl in captivity overnight and escorted her home 
safely.
    In many ways, it was a miracle. But what Bibi Halima did 
was to use her skills and knowledge to courageously navigate 
across lines of conflict and negotiate her way out.
    We need women like Bibi Halima who know who to navigate 
negotiations with the Taliban in this peace process, alongside 
the women experts in constitutional law, transitional justice, 
government reform, mediation, negotiation, and ceasefire 
monitoring.
    In conclusion, Afghan women are essential to the successful 
peace process and are demanding meaningful participation in the 
peace process at all levels. They are demanding respect for 
their rights within the constitutional order and protection 
from violence with a responsible U.S. withdrawal supporting the 
Afghanistan National Security Forces to maintain security and 
stability through this process to ensure a sustainable peace 
for their homeland.
    Thank you.
    [The prepared statement of Ms. Kakar follows:]

                  Prepared Statement of Palwasha Kakar

                              introduction
    Chairman Rubio, Ranking Member Cardin and members of the 
Subcommittee, thank you for the opportunity to testify on ``Women in 
Conflict: Advancing Women's Role in Peace and Security'' and 
particularly on women's involvement in the Afghan peace process. The 
timing for this hearing is especially important given the escalation in 
violence in Afghanistan over the past few weeks and the heightened 
drive for a peaceful solution of the country's conflicts in the near 
future.
    I am a Senior Program Officer on Religion and Inclusive Societies 
at the U.S. Institute of Peace (USIP), although the views expressed 
here are my own. I have over 10 years of experience working in 
Afghanistan on women's inclusion, religious engagement, governance and 
education. I focus at USIP on a comparative country approach analyzing 
women, religion and peacebuilding in Afghanistan, Pakistan, Libya, 
Syria, Iraq and Burma. Specifically, based on my experiences in 
Afghanistan where I have studied religious women who have successfully 
negotiated with Taliban, women are brokering local ceasefires, helping 
release hostages, and negotiating to keep girls' schools open.
    Today's hearing also comes at an opportune moment with the release 
earlier this week of the U.S. Strategy on Women, Peace, and Security 
and while the U.S. has committed to a peace process with the Taliban on 
Afghanistan.
                           three main points
    I would like to highlight three main points for the Subcommittee as 
you consider advancing women's role in peace and security in the case 
of Afghanistan:

  1. Afghan women are essential to the success and sustainability of a 
        peace process--from peace talks to monitoring agreements.

  2. Afghan women are adamant in calling for a peace process that 
        protects their rights and gains made over the last 18 years. 
        #AfghanWomenWillNotGoBack

  3. Most Afghan women, men, young, old, activists, religious scholars 
        and civil society call for an immediate ceasefire and an end to 
        the bloodshed in Afghanistan. Afghans are urging the 
        international community, particularly the United States, to 
        work with the Afghan government to strengthen security and rule 
        of law, continue funding to the Afghan National Security Forces 
        (ANSF) and the police, and provide funding for the protection 
        of women and girls. They support a responsible and gradual 
        withdrawal of U.S. troops from Afghanistan to ensure security 
        and stability prevail on the ground. #CeasefireForPeace
            afghan women are essential to the peace process
    Afghan women make up more than 50 percent of the population and 
have experienced the war in a myriad of different ways than men. Yet, 
in the face of all the challenges, Afghan women have made gains in the 
past 18 years. They have been involved in key, successful peace 
settlements at national and local levels. Afghan women have the skills 
and technical expertise in negotiation, mediation, constitutional 
reform, transitional justice, and ceasefire monitoring. Currently, 
Afghan women are well organized and have taken concrete initiatives 
towards the peace process.
    Women in Afghanistan, as in so many countries around the world, 
have felt the brunt of war. They have been and continue to be attacked, 
raped, maimed, kidnapped, bought and sold as well as being killed in 
suicide bombings and general attacks on schools, markets, government 
buildings and places of worship. Amid all of this, women are expressing 
their leadership and convictions throughout Afghanistan. Women, who 
comprised almost 20 percent of the Afghan peace jirga in 2010 and 30 
percent this May in 2018, continue to demand they be included in peace 
processes. As a result of the 2010 jirga, nine women were appointed to 
the 64-member High Peace Council that came out of the gathering of 
tribal leaders.
    Women's groups since then have proactively consulted with women 
across the country to identify their needs and expectations regarding 
the peace process and communicated their findings to the Afghan 
government, political leaders and the international community. Women 
have reached out to Taliban fighters, pleading with them to stop the 
bloodshed. This is reminiscent of 2014 when the female members of the 
High Peace Council collected 300,000 signatures calling for peace and 
cessation of armed hostilities.
    Last year, the largest Afghan women's coordination body, the Afghan 
Women's Network (AWN), worked with Afghanistan's First Lady, Mrs. Rula 
Ghani and her office, to coordinate nation-wide consultations with 
women in all 34 provinces of Afghanistan. That effort culminated in a 
``Declaration of Afghan Women's National Consensus for Peace'' that 
captured women's perspectives across the country.
    The Afghan Women's Network consulted with their member 
organizations and beyond, from all the provinces of Afghanistan, to 
construct a declaration of women's demands and their ``red lines'' 
leading up to the Moscow talks in February 2019, the subsequent U.S. 
Taliban Doha talks and the intra-Afghan Doha talks in April and Moscow 
talks in May. In the run up to intra-Afghan talks with the Taliban in 
Doha that fell apart in April, the AWN had prepared a delegation of 41 
women from diverse backgrounds and the political spectrum, including 
the government, to participate in the peace talks. When the process for 
developing a delegation broke down between the male political 
opposition party members and the government in Kabul, the women went to 
all the groups to urge the parties to come to an agreement to move the 
peace process forward while conveying women's demands. Eventually, the 
parties were able to draw up a list of delegates and move forward on 
the process before it fell through. However, women's civil society 
organizations did not give up. They came together from across 
geographic, ethnic, and religious divides to put together a diverse 
roster of women civil society experts that the U.S. or other 
international mediators could draw upon for participation and expertise 
in the peace talks.
    Looking back, Afghan women have been part of successful peace 
processes throughout Afghanistan's history. Although Ahmed Shah Durrani 
is credited with founding the modern state of Afghanistan in 1747, it 
was his mother, Nazo Anna, whose contribution to uniting the warring 
tribes became the lynchpin to bringing peace and stability in the 
founding of the Afghan State.
    When the Taliban were driven out of power in 2001 by U.S. troops 
and allies, women were part of the successful political settlement in 
the Bonn process and constitution drafting that has led to 18 years of 
a stable, democratic government--albeit still under attack from the 
Taliban who were not included in the Bonn process.
    Afghan women's role in the Bonn process was successful and led to 
the formation of important institutions, including the Afghanistan's 
Independent Human Rights Commission and the Ministry of Women's 
Affairs. Both were created to address the specific experiences and 
concerns women had from the conflict. Women were also involved in the 
constitution drafting processes, including being a part of the drafting 
council, committee and consultations that ensured women's equal 
citizenship, access to education, health care and representational 
quotas in Parliament.
    There were prominent women's rights activists who boycotted the 
Bonn process because they wanted the bombing to stop and a lasting 
peace to be built that included the Taliban in the peace process and 
political settlement. Many of those women predicted the Taliban would 
continue to fight and cause instability in the country. According to 
some Afghan women, as a result of not including the Taliban in the Bonn 
process \1\, the Taliban are now demanding a clean cut from the Afghan 
constitution and the political system that was built without their 
inclusion, despite experts calling it the most Islamic constitution in 
the world.
    After the fall of the Taliban, many Afghan women, especially in the 
urban centers, saw major and immediate improvements in the quality of 
their lives and their access to basic rights. In short, after 18 years 
of American-backed governments, Afghan women and the society have 
changed significantly for the better with the emergence of female 
entrepreneurs, political leaders, and even nightly news anchors. The 
Taliban, by contrast, has made very little progress on women's issues 
since being pushed from power in 2001, despite persistent claims to the 
contrary. The group's record is spotty at best in the areas of 
Afghanistan it controls, and its leaders continue to make ominous 
statements on gender, such as calling for girls' education to end by 
age 12 years of age.\2\
    Women have also been successful at negotiating on behalf of their 
communities at the local level. Women are able to navigate across lines 
of conflict and negotiate settlements using traditional and moral 
authority. These courageous women have negotiated with Taliban and 
other armed groups on behalf of their communities to end violence and 
bring peaceful settlements to issues of conflict around hostages and 
access to land. At the national level, four women were part of the 
peace negotiations that ended in a settlement in 2016 between the 
government and Hekmatyar's Hezbi-Islami that has so far been 
successful. This peace agreement was seen as a possible model for the 
Taliban to follow or at least to see if the government would keep its 
promises.\3\
    Despite these achievements, women continue to be absent or 
remarkably underrepresented in peace talks. Women's experiences of 
exclusion from peace agreements from 1992 to 2001 under the Mujahedin 
and Taliban regimes show that what is power sharing and peace for men 
is not peace for women or others left out of the equation, nor is it 
sustainable. In response, women rights advocates and civil society 
activists have taken to traditional and social media as well as to 
international community to express their dismay about their exclusion 
from dialogues between the government and the representatives of the 
Taliban.
                       #afghanwomenwillnotgoback
    After nearly 40 years of war, Afghanistan and the international 
community are urgently seeking paths for a peace process. But amid the 
tentative efforts--a 3-day ceasefire last June, the peace march across 
the country by hundreds of Afghans, the Afghan Women's Peace Movement 
and talks by led by U.S. envoy Zalmay Khalilzad--a somber question 
hangs for women and human rights advocates: How can Afghanistan make 
peace with the Taliban while protecting democracy and women's rights? 
While that question is universal in peacemaking, Afghanistan's history 
of abuses against women, including by the Taliban, makes it a tough 
case. In response, a 2 million strong social media campaign has taken 
off with the hashtag: #AfghanWomenWillNotGoBack.
    Afghan women have expressed their demands for a peace process that 
is inclusive and respects the constitution and rule of law through the 
large national consultation process and civil society leaders' 
consultations process. Afghan women want meaningful participation at 
all levels of the peace process. They firmly reject any backsliding on 
rights enumerated in Afghanistan's constitution and legal code. 
Enforcement must be guaranteed for laws that bar violence against women 
and abolish discriminatory and unjust practices and traditions.
    There is clear consensus by women's groups that Afghan women's 
participation at all levels of the peace process should guarantee that 
women's rights be protected in any agreement and there be proper 
mechanisms and incentivized resources to ensure the agreement is 
upheld, including women's monitoring of the peace agreement. 
Furthermore, they are calling for an immediate ceasefire to create 
space for a meaningful peace process to begin.
                           #ceasefireforpeace
    Afghan women across the country in solidarity with Afghan men, 
peace marches, Afghan Ulema and broader civil society are calling for a 
hashtag #CeasefireFor
Peace. They are calling for an end to the bloodshed and demanding that 
the violence stop immediately. This call for a ceasefire is a call for 
trust building with the Afghan public to create room for meaningful 
dialogue and reconciliation to begin as part of the peace process.
    All recent surveys, including the Survey of the Afghan People, have 
shown that women are most concerned about security. This does not mean 
that they want the U.S. military to stay in Afghanistan forever. What 
they are asking for is a responsible withdrawal that leaves behind a 
well-trained Afghan security force and an inclusive and sustainable 
peace agreement that protects women's rights, democratic institutions 
and the constitutional order.
    Afghan women are urging the international community, and the U.S. 
specifically, to ensure women and girls are protected through this 
precarious transition process by supporting and funding the ANSF and 
police. They fear that if the U.S. pulls out its military without these 
safe guards, more instability with arise in the vacuum and women will 
again be disproportionately impacted. They fear an irresponsible pull 
out of the military will perpetuate the war, similar to the effect of 
the Soviet's pulling out its military in the 1990s that led to even 
more war. Afghan women fear this possibility, but they are not asking 
the U.S. military to stay forever, but to leave responsibly and with 
systems in place in Afghanistan that protect women and establish 
stability and security on the ground from possible future extremist 
threats.
    In conclusion, Afghan women are essential to a successful process 
and are demanding meaningful participation in the peace process at all 
levels, respect for their rights in the constitutional order and 
protection from violence through this process to ensure a sustainable 
peace for their homeland.
    The view expressed in this testimony are those of the author and 
not the U.S. Institute of Peace.
--------------------
Notes

    \1\ According to 2019 interview with Palwasha Hassan, Executive 
Direct of Afghan Women's Education Center and co-founder of Afghan 
Women's Network for USIP blog piece.

    \2\ Belquis Ahmadi, ``Afghan Talks: No Women, No Peace'' USIP 
Analysis and Commentary (Washington, DC: USIP March 2019).

    \3\ Palwasha Kakar, ``How can Afghans make peace AND protect women? 
Meet Ayesha Aziz.'' USIP Analysis and Commentary (Washington, DC: USIP 
March 2018).

    Senator Rubio. Thank you.
    We are going to start with the ranking member.
    Senator Cardin. Well, let me thank all three of you for 
your powerful testimony. Particularly putting a face on the 
issues is powerful because we are talking about people's lives.
    This weekend, I was in France as part of the 75th 
celebration of D-Day. I took that opportunity as my role on the 
Helsinki Commission to meet with a group in Paris that deals 
with tolerance of people of different religions. They are 
called ``Coexisters.'' They have 40-some chapters in France 
involving 2,500 young people to try to do something about the 
growing trend of hate in Europe.
    I mentioned that because a young woman is the leader, and I 
asked her a simple question as to what is her greatest 
challenge, expecting her to tell me it was peer pressure not to 
join these groups. Instead, she told me it was peer pressure 
from the families not to join these groups, particularly their 
fathers that were concerned that it would be a risk with them 
meeting with people of different religions. But the woman told 
me she was encouraged by her mother to do this.
    So we definitely have gender issues, but we also have 
generational issues. And that is part of the problem that we 
have involving women and lasting peace.
    I was impressed by some of your individual stories. And I 
want to suggest that as we develop a U.S. strategy to deal with 
the subject of involving women for stability and peace, we need 
to highlight best practices. Now, you have mentioned some, but 
I would just encourage you to share with us what has worked in 
order to engage women in a meaningful way in mediation, in 
conflict prevention, in implementing peace, negotiating peace. 
What has worked? And how can we use that as our template for 
U.S. support of organizations that can advance those types of 
practices in different countries around the world? If you have 
ideas now, fine. If not, if you could make it available. I see 
some people shaking their heads. So I will give you an 
opportunity to respond, if you would like.
    Ms. Bigio. Great. Thank you. It is a great question because 
we do have the commitment to support women's meaningful 
participation and are now looking to put that into practice.
    First is ensuring that women have a sufficient number of 
formal seats at the table so that they can actually have 
influence. The number 30 percent comes out of research saying 
that it is with that number that women can have more influence 
on the dialogue itself. So the extent to which the U.S. 
continues to encourage countries, parties, negotiating parties, 
mediating teams to have at least 30 percent women represented 
and as we are calling on countries to lead by example and to 
live that ourselves with having diversity on our own 
delegations.
    Second is ensuring civil society has a channel in to 
influencing the process. There are civil society groups that 
have networks across their countries that are talking with 
women's groups, with communities in the most rural parts of the 
countries that may not have a sense of what is happening in the 
negotiations that may even be occurring in a different country. 
They are a channel. They are helping to build the community 
support for an agreement that is reached and to help feed 
information back up to negotiating parties of what is actually 
happening on the ground for people facing and living the 
conflict every day.
    And third is making sure that the issues that women do 
raise, whether through their formal roles or in civil society, 
are actually included in the agreement. So these may be issues 
like transitional justice, securing the release of detainees, 
investing in education, and employment, issues that will set 
the country up actually being able to recover once the 
agreement is reached.
    Senator Cardin. They are three great suggestions. In my 
work with the Helsinki-OSCE, the first two are matrix that we 
use, percentage of women that are on each of the committees, 
percentage of women that are involved in civil society. We will 
not go to venues that do not give full access to civil 
societies. And we have had some countries that we have had 
challenges with. So I think that is an extremely important 
point.
    The agenda is something that we have got to work on because 
I think that is more challenging. We have not developed that as 
effectively as we need to in a lot of our advocacy work to 
advance peace. So I think that is a great suggestion.
    And it is the second point--the first and the second are 
pretty much related. When we talk about best practices, how do 
we judge success? How do we judge whether the resources we are 
putting out really result in progress? Obviously, the ultimate 
progress is stability and peace, but to get there, what are the 
matrix that we are looking at to give us the best chance of 
that success? As we work with different groups and help fund 
different groups, what do we expect to achieve? And I think you 
have given us three avenues that we need to develop specific 
matrix to or specific numbers so that we can have a better 
understanding of how we are making progress. So thank you for 
those points.
    Senator Rubio. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    And just to follow up a little bit on Senator Cardin's 
question about matrix, one of the things we heard at the 
roundtable earlier this week from Administrator Green was that 
USAID has developed metrics to include women. But are there 
places within the administration--are there particular metrics, 
in addition to the ones that you have named, Ms. Bigio, where 
we think we should add more metrics? Are there concerns about 
the State Department and the Department of Defense where they 
have maybe not developed similar metrics where we need to think 
about what they should be doing?
    And finally, I would like to ask you. When I talk to people 
about how we change minds about this issue, changing the laws, 
developing the metrics is the easy part. It is the cultural 
changes that is really the hard part. So how do we get at that 
piece as well? So I would open it up to anybody who would like 
to respond.
    Ms. Bottner. Thank you, Senator.
    I can certainly address the cultural change. I think it is 
the biggest challenge that we face. I think it is so important, 
when you are going into a society, to get as many voices as 
possible involved. You know, when you are going in each 
community, each country, every culture is going to be 
different.
    And I think we have had success going into a community. It 
is not necessarily who we should be talking to. It might not be 
the groups that are top of mind or you are told to reach out 
to, but to really be looking at some of the more 
disenfranchised groups where often women's networks and women's 
organizations tend to have very close relationships, really to 
solicit their input and their ideas. And sometimes that is 
something that is done off track. Sometimes that is something 
that is not as forward or as public as is typically done. But I 
think the more voices and the more diverse viewpoints that we 
can bring to the table, bring to the debate, that is obviously 
going to help change the culture, start perhaps a new culture, 
and then serve as an example in that community to the next day, 
to the future.
    Ms. Bigio. And if I may build on that. On the first part on 
the metrics there with the implementation plans, I do hope that 
the agencies will set very specific targets about what more 
they will do to advance women's participation across peace and 
security. And here that will help translate the lofty goals 
that are in the Women, Peace, and Security Strategy into more 
concrete policies and programs.
    So, for an example, in the security forces space, the U.S. 
can help strengthen security forces around the world if the 
U.S. Government were to increase training opportunities for 
female officers. Programs like the International Military 
Education Training program, or the anti-terrorism assistance 
programs--they include very few female officers. So if the U.S. 
were to, for example, double the total number of women 
receiving training through the programs that we provide, it 
would help advance the career of promising female officers 
around the world but also help set a norm of men and women in 
security sectors working together effectively.
    In the peacekeeping space, the U.S. could commit to 
supporting five countries and addressing the barriers to 
recruiting and retaining women in their security forces and 
deploying them as peacekeepers.
    There are also targets around funding and support. I think 
the proposed Central American Women and Children Protection Act 
is a great example of supporting accountability for sexual 
violence survivors and of committing to a certain number of 
countries that we will support to do that.
    In the cultural change aspect, that is where there are also 
steps that the agencies can take in their implementation plans 
to better institutionalize these commitments.
    First is training. Right now, there may be many government 
officials across the agencies who have never heard of U.N. 
Security Council resolution 1325 or of the Women, Peace, and 
Security Act. I was in charge of this at the NSC and the State 
Department. Staff would turn over as Foreign Service officers 
rotated, and I would start again at the beginning of explaining 
where we came to. So first is making sure our training actually 
reaches all of our U.S. Government officials so that they know 
the evidence, know the commitments that they have made.
    A second area is performance reviews, that they are 
actually held accountable to ensuring that what they can do in 
their daily jobs actually advances women's participation and 
security and that there is a check on that each year that they 
are following through.
    And having the tools and resources and the top level 
support will help create a culture change within the U.S. 
Government that we are actually putting our goals into action.
    Senator Shaheen. I am out of time, but I just wanted to 
comment. You talked about women in security forces. It is my 
understanding--and, Ms. Kakar, you could probably confirm 
this--that while recruitment of men for the Afghan Security 
Forces are down, that actually the recruitment of women has 
increased. What better way to begin to help reflect change than 
to see more women in the security forces and the police forces.
    Ms. Kakar. May I comment on that?
    Senator Shaheen. Sure.
    Ms. Kakar. I think that is very true, and it is really 
interesting to see how they have been able to create safe 
spaces for women in the national security force. I know that 
has been a challenge in creating those safe spaces to be able 
to improve recruitment of women into the security forces.
    But in terms of metrics, one of the things that Afghan 
women have mentioned is to incentivize women's participation by 
asking the political parties, when they come around the table, 
that they should make sure that women are represented from each 
of those political parties.
    And then also on the ground, if there is any talk of 
withdrawal, to also incentivize the Taliban to say that it will 
be gradual if we see certain things met like girls' schools 
being opened, like women being allowed to go to work, and 
hospitals still having women doctors there for women.
    So some of those issues to lay those out as conditions in 
very clear metrics. And that will be then specific to each 
country, obviously in Afghanistan.
    The other thing I wanted to say about cultural changes as 
well was that support the cultural changes from within. There 
are a lot of amazing women doing this kind of peace negotiation 
work in countries that we are working in. I know from the work 
that I have done in Afghanistan, there is a long history and 
tradition of women doing all kinds of peace negotiation work 
from the local level to the national level. We have historical 
examples and we have examples in tribal communities where there 
are tribal women leaders who are making decisions.
    But similarly in other countries, for example, in Libya, 
there are women doing the same thing. That has been a tradition 
that people do not know about and even many Libyans do not know 
about, and it is being rediscovered internally.
    So to find those change makers, those agents of change, 
internally and support those I think is really important to 
change the culture.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Senator Rubio. Thank you.
    Senator Kaine, are you ready or do you want me to go?
    Senator Kaine. Yes. No, I was kind of getting my head out 
of the meeting I was just in. But in the last answers, I have 
now gotten my head into this meeting.
    So thank you for calling this hearing, and thanks to the 
witnesses for your work and for being here today.
    I want to ask a Central America question and then I want to 
ask a Saudi Arabia question.
    So women like the late Berta Caceres in Honduras and 
Claudia Samayoa in Guatemala have been at the forefront of 
social change movements in Central America, but they are also 
impacted by government targeting of their role and the 
breakdown of rule of law in these countries.
    With Senators Rubio and Menendez, earlier this year I 
cosponsored the Central America Women and Children Protection 
Act of 2019, feeling that, A, it is good for us to do it, and 
B, it is also going to help us in some of the immigration 
challenges that we are facing if we deal with root causes and 
try to promote more stability, public safety, and economic 
development and respect for rule of law in Central America.
    What kind and level of assistance from the United States do 
you think could best support women in Central America and start 
to try to deal systemically with root causes of some of the 
challenges that we are seeing in the United States from the 
migration challenge?
    Ms. Bigio. Thank you, Senator Kaine, and thank you for the 
introduction of that bill because the research and experience 
fully points to what you are touching on, that there are 
incredible women leaders in these countries who are advancing 
security, who are being targeted themselves, as well as women 
and girls more broadly are being targeted in their communities. 
And that is one of the drivers of migration, and we see on 
migration routes that women and girls are also at higher risk 
of human trafficking.
    So as the bill rightly does, there needs to be greater 
investment in the countries directly in helping to address the 
violence itself of supporting accountability measures by 
police, by judicial systems to make sure that there is greater 
response to the violence when it occurs, also broader 
investment in education and employment opportunities so that 
the societies can--that women have an opportunity to contribute 
to their societies and to help build the stability in their 
societies and to have an active role in that regard. And the 
extent to which the U.S. can take a lead from the women leaders 
themselves, they will tell us what their priorities are in each 
of their countries and what the best routes are to helping to 
achieve those. That will help us direct our dollars in the most 
effective way to help ensure that they are both safe and able 
to fully participate and fully contribute across Central 
America, across the Northern Triangle countries to truly 
shifting the tide of violence there and to building greater 
stability.
    Senator Kaine. Let me do this because I now just have 2 
minutes left. I want to switch to Saudi Arabia, and this is a 
Saudi Arabia question but it is also a bigger question.
    So Saudi Arabia has imprisoned a number of women's rights 
activists. Aziza al-Yousef is a Saudi professor who went to 
college at Virginia Commonwealth University in Richmond where I 
live. She has been imprisoned for leading protests against the 
driving ban and the guardianship issue. Her son, who is also a 
Virginia resident but a Saudi citizen, has also been 
imprisoned, along with others. It seems that there is sort of 
an attitude of we have to make some changes, allow women to 
drive, but if you led a protest to promote women to drive, we 
are going to put you in jail. I did this. You did not force me 
to do it, and you are going to jail because you had the 
temerity to speak up about it.
    This enrages me not only because these are Virginians in 
many ways, but it just enrages me that this behavior is allowed 
to happen.
    When we raised this with the administration, we are often 
told, look, if we insist upon these kinds of human rights 
protections, Saudi Arabia will deal with Russia or China, other 
nations that do not insist on human rights protections. The 
same argument is advanced if we say why would we transfer 
nuclear technology without appropriate safeguards. Well, if we 
do not do it, Russia and China will do it. This is an old 
argument that comes up every time the United States insists 
upon human rights. Oh, but other nations do not. If we insist 
on human rights, then country X will do business with Russia 
and China instead of with the United States.
    Tell me why we should continue to insist on human rights, 
including for these imprisoned women, women's rights activists 
in Saudi Arabia. And that is really a question for all of you.
    Ms. Bottner. Thank you, Senator. I think you are absolutely 
right. We need to continue to insist on their rights. It is not 
unusual that the same argument comes up I think from outside. 
We can continue when we are over there when we are working with 
civil society, Saudi women trying to give them soft support, 
trying to work as an example, lend them assistance in a way 
that might not be as direct as communication with the White 
House, but with others.
    I was actually in Saudi Arabia years back, and it was just 
a stunning experience. I had a particular schedule that was a 
public itinerary and we were so cheered to see that there were 
women law students. And we tried to applaud publicly the 
progress they were making.
    But I will say that the most information I gathered was in 
the off-the-record private meetings that were set up, and they 
were set up because we had contacts inside the country that 
were working with domestic violence, sexual assault victims, 
and it was truly that underground vibrant network of women. So 
to continue to information gather and try to lend that 
solidarity to those women I think is so important, but it is 
certainly frustrating to get that same argument.
    Senator Kaine. Mr. Chair, I am out of time.
    Senator Rubio. Go ahead. Absolutely.
    Senator Kaine. But could I ask the others to respond?
    Senator Rubio. Yes, absolutely.
    Senator Kaine. Thank you.
    Ms. Kakar. Thank you. I think, of course, it is important 
that the United States be an example and continue to support 
human rights across the board no matter what.
    But in particular countries where it is difficult, I think 
taking a peace-builder's approach is really important, and 
looking internally to those who do support this idea and how 
that change can happen from the inside, as well as regional 
supporters, so building on regional support of those who do 
support human rights and are worried about what Saudi Arabia 
and other countries like that are doing I think is really 
important. So taking a peace-builder's approach, looking for 
regional support, and also change agents within that can be 
supported.
    Senator Kaine. Thank you.
    Ms. Bigio.
    Ms. Bigio. On your first point, just to note that ACTA just 
released a report that found that political violence against 
women, targeted violence like you mentioned in Saudi Arabia, is 
actually on the rise. There were more reports in the first 
quarter of 2019 than in the first quarter of 2018. So this is 
something that human rights activists and women leaders around 
the world are facing with rising attacks, rising 
assassinations, and rising imprisonments, as you pointed to in 
the Saudi Arabia case.
    So it is critical that the U.S. continue to face that 
issue, as well as continue to raise the broader focus on human 
rights that we do. And I think the argument there is that when 
countries do protect and promote human rights, when they close 
the gender gap, they are more stable, they are more prosperous. 
It advances U.S. interests and U.S. global interests in peace 
and security when we encourage partners to take those steps. So 
if we are not raising this issue, then it is taking pressure 
off of governments to assess where there are opportunities, 
where they can take some positive steps forward in this space. 
We need to continue to raise it so that they continue to look 
for and identify where they may be able to take some steps 
forward that in the end advances their own stability and 
prosperity and, in that regard, makes our own investments more 
effective at the outset.
    Senator Kaine. Thank you.
    Mr. Chair, if I just might say one more thing, not a 
question but just a comment.
    There has been controversy this week over the 
administration's direction to U.S. embassies to not have a 
pride flag up during Pride Month. And the situation of LGBTQ 
women around the world is an important one. I was in Turkey 
about 2 years ago and met a woman named Sadef Kakmak, who was 
the first LBGT official elected to political office in Turkey. 
She was elected to an equivalent of a town council within the 
Istanbul metropolitan area. She started as an activist in 
organizing the Istanbul Pride Parade 15 years ago with about a 
dozen people. It eventually grew to 14,000 or 15,000 people, 
and when it did, the government shut it down.
    I was really fascinated when I met with her, and I met with 
her since in the United States too. She talked about how 
critical the support of the U.S. embassy--in this case, the 
consulate in Istanbul--the embassy is in Ankara--how incredibly 
important the support of the consulate in Istanbul was to the 
pride movement, pride flags advocating for them, participating, 
marching, being there with them, allowing them to meet in the 
consulate. She said that basically they could not have gone 
from a handful of people to a big group of people. They could 
not have done that without active support from the U.S. 
advocating for the equality of LGBTQ women and all LGBTQ 
people.
    So when the news happens about the flag, okay, I think some 
people read that story and they think, well, does that really 
matter. Does it make a difference? Is it just symbolic? No. It 
is not just symbolic. That is a symbol of our values and our 
commitment to the equality principle that was articulated in 
the Declaration of Independence. It gives hope to people and 
inspiration to people around the world. And when we decide we 
want to step back from that, that puts people like Sadef Kakmak 
and others in a less protected, more vulnerable position. We 
have an incredible power, even using soft powers like to fly a 
rainbow flag during Pride Month.
    We have an incredible power to give people hope and 
inspiration, and I hope we will continue to do it. And I think 
there is a lot of women in the world that really have grown to 
count on us over the years, and I hope we do not let them down.
    Thank you, Mr. Chair.
    Senator Rubio. Thank you.
    I wanted to start kind of almost taking off on one of the 
questions Senator Kaine had. It has been answered already. But 
I have not been here forever, but I have been here long enough 
to know that these reports like this--they get issued and then 
a few years later are like, whatever happened to or do you 
remember when. And there are a lot of reasons for it. Sometimes 
change in administrations. But oftentimes it is because we have 
not answered the fundamental question of why.
    As a policymaker for the United States, each of us works 
for the people of the state that we serve, and we have to, 
first and foremost, answer to the people that elected us and 
for whom we speak here in the Senate why this is more than just 
a nice thing to do. Why? Why is this in the national interest 
of the United States of America? That is the most important 
question because if you do not answer that, why it is in our 
national interest, then I think it is very difficult to sustain 
this beyond being just something we do because we are good 
people.
    So I wanted to give each of you, since you are so deeply 
involved in this, if you were speaking to someone in Florida or 
in Virginia or Maryland or New Hampshire and asked this is 
great, but why should this be a priority with all the problems 
that are going on in the world and all the challenges that we 
have domestically? Why should we be focusing on this? You would 
say? Whoever wants to go first.
    Ms. Bottner. Thank you, Senator.
    I would say bluntly when we empower women, societies are 
more stable. When they are more stable, there is not going to 
be the risk or the incidence of chaos, conflict, war. So if we 
are sitting here in Florida and we are wondering about what is 
going on in the world and why it matters, you could bring it 
right back to when the world is more stable, we are less 
threatened. Take the arguments off the table about it being the 
right thing to do, which I think we all agree, but at the end 
of the day, a more stable world is less threatening for us.
    Women's economic empowerment--when we see things like 
boosting women's economic and access to capital and some of the 
strategies that have come out of this administration and 
others, that is all good for women, but it also contributes to 
a more stable society and community, which is again less 
threatening to us.
    Senator Rubio. Ms. Bigio, same question. Somebody comes and 
asks me somewhere, this is terrible what is happening to these 
women, but we have got so many problems in this country, why 
are we focused on this? Because?
    Ms. Bigio. First off, that no country can get ahead leaving 
half its population behind. So if we want to advance security 
and global prosperity, then that means ensuring that half the 
population has an opportunity to participate. And the evidence 
is there for any issue that one of your constituents cares 
about. If it is health care, if it is climate change, if it is 
education, that in all of those cases, we will be more 
effective at advancing that around the world if we ensure that 
women and girls have----
    Senator Rubio. I think the question they would ask me is 
why do we want to advance this issue around the world? That is 
their problem. It is their country. Let them fix it. If they 
said that to be, we would say?
    Ms. Bigio. We would say we are more secure as a nation when 
there is greater peace and prosperity around the world. There 
are more opportunities to trade and to engage with countries 
around the world when they themselves are more peaceful. There 
is less trafficking. There are great opportunities to exchange 
and to learn from one another when there is global prosperity. 
So I think the priority there is that if we do want to ensure 
that our nation is secure, that means ensuring that countries 
around the world share in that prosperity and peace as well, 
and that means investing in half the population being able to 
contribute to peace and security.
    Senator Rubio. And, Ms. Kakar, you are probably going to 
get the toughest question of all just because I am going to 
kind of centralize it to your comments. But you know, we all 
recognize there is a significant level of fatigue in this 
country about U.S. engagement in Afghanistan, almost 20 years 
now. And so a lot of people would say--this is not my view. I 
am just expressing--pretend that I am a constituent of one of 
us. And they come to us and say, look, what is happening in 
Afghanistan is a terrible thing, but that is never going to be 
fixed. That is another country. It is far away. It is nothing 
like us. We went after al Qaeda and ISIS. It is terrible what 
is going to happen to women there. It is terrible--the 
situation. But why should we care about it when all these other 
things are going on? Let us just get out as soon as possible 
and let it be what it is. You know, they have got to solve 
their problems. And we have to answer that to our constituents. 
We would say what?
    Ms. Kakar. So what I would say to somebody like that, we do 
not want to have happen what happened in the 1990s when the 
Soviets withdrew from Afghanistan and there was a vacuum. We do 
not want 9/11 to happen again. We do not want there to be a 
safe haven for terrorists in a country like Afghanistan.
    We want to support a successful peace process, and to make 
sure that that peace process is the most successful, we need 
women's inclusion in that peace process. We do not want to 
leave a vacuum. We do not want to commit the same mistakes that 
have been committed in the past. We want to make sure that 
there is a safe and stable country so that we do not have to 
deal with the terrorists that might come from leaving a vacuum 
in a place like that.
    Senator Rubio. Great answers. To all of you, thank you 
because we are going to get asked and it is going to be 
helpful. But it is important to answer that because it leads us 
to the other points I wanted to raise.
    The first is for these strategies to work, they have to be 
systemized. They have to be formalized. It has to be engrained 
in how we operate across the board. And so I wanted to ask each 
of you, is it your sense that we are--do we have in place, for 
lack of a better term, a curriculum to train applicable U.S. 
Government personnel, diplomats, members of the military, our 
developmental personnel to take into account the priorities 
laid out here? In essence, are our diplomats, our military 
personnel, our development personnel--do we have a way now--
does the curriculum exist to train them to be sensitized to 
this as part of the work they do to instill it in the work that 
they do as they operate?
    Ms. Bigio. There is some training available now, but it is 
not widespread and it is not very effective. So there are some 
standalone courses at the Foreign Service Institute where the 
State Department and USAID and others can participate, but they 
are small courses that only a few pass through. And when they 
are touched upon in broader courses for Foreign Service 
officers that are coming in or deploying around the world, it 
is touched on in a very short segment that is not very 
effective.
    The Defense Department, with some of the support of 
previous appropriations, has been developing gender training 
courses at combatant commands. So they have done that now for a 
few of the combatant commands but not all, and that is 
something that they want to make more regular and what to make 
more available.
    So hopefully the implementation plans will include 
attention to more training opportunities at State, USAID, DOD, 
across the intelligence community, Department of Homeland 
Security, all of the agencies that are implicated to make sure 
that they actually have the skills to put the commitments into 
action.
    Senator Rubio. I think that is one of the first challenges 
we are going to have here in conducting oversight over this 
implementation is not just ensuring that every year the people 
being deployed are put in these positions or watching some 1-
hour mandatory video and then that is your training. I mean, we 
really need to make sure that that is happening across the 
board because you cannot implement it.
    The second is I think that we need to be able to track how 
the strategy is being implemented in real time. I know we are 
going to get a report back every 90 days. But in addition to 
having metrics, we have to have a system to sort of be able to 
look at all the dozens of agencies that are going to be in 
charge in some level in sort of implementing the strategy, sort 
of real-time tracking of who is performing.
    My guess is the ranking member and I are actually--you 
know, we serve next to each other on this committee, on this 
subcommittee, and also in Small Business. People start 
confusing us for each other.
    [Laughter.]
    Senator Rubio. But as we talk about it, we look at, even 
with something like the Small Business Administration where 
there is this requirement--not to this topic, but there is this 
requirement for small business set-asides and small business 
help. And some agencies in government are better at doing it 
than others.
    And I think this is going to be the same issue here. So we 
have to have some system set up, and part of that is going to 
be the question I wanted to ask is based on just your 
interaction on this issue, what suggestions do you have on 
creating an interagency coordination process so that when all 
these of these stakeholders are sitting down to construct 
policy towards any place on earth--let us say we are talking 
about Afghanistan and the peace talks. From the Intelligence 
Committee to all the principals that go in these National 
Security Council meetings, from USAID to the intelligence 
community, to DOD and everybody in between, that they are all 
part of that conversation. Who is in charge, I guess is my 
question, of ensuring that part of that interagency 
coordination, as they set up these plans? Who is in charge of 
making sure that one of those things that they are discussing 
and creating a plan for is the strategy? Because I do not know 
who is in charge of implementing this.
    Ms. Bottner. Thank you, Senator.
    I would encourage that the Secretaries of those particular 
departments that have been called out to be implementing this--
the leadership is so important from the top. And if the 
Secretary takes that commitment truly to heart--I know years 
ago I saw that at State. When you are talking about interagency 
working groups, so often if your secretary, your boss, is not 
making that definitely a critical element and a goal of the 
department, it is very easy to have it fall by the wayside. So 
I would just stress, DOD, USAID, State, all of those 
departments who is really going to take ownership, because it 
is so important that the leadership comes from the top of that 
agency.
    Ms. Bigio. I served on the National Security Council staff 
as a civil servant in the previous administration, and women, 
peace, and security was in my portfolio. So I saw the critical 
role that the National Security Council staff can play in 
helping ensure implementation of the Women, Peace, and Security 
Strategy now, the new one.
    And there the challenge is on a daily basis ensuring that 
U.S. policy decisions on a given country on a given security 
issue bring attention to women's participation and their 
protection from violence into those discussions.
    And so in that regard, I think in the ideal world, the 
National Security Council staff and the leads on Women, Peace, 
and Security in the agencies--they are a source of expertise 
for the whole of government, for anyone shaping policy on a 
given region and security to help ensure when the NSC is 
hosting a meeting on Yemen, on Syria, on Afghanistan, on 
peacekeeping, that at the table is that expertise and that 
perspective of, in this case, how are we going to improve our 
security priorities by integrating attention to Women, Peace, 
and Security into it.
    It is integrating it into those conversations that will 
make sure the Women, Peace, and Security Strategy actually is 
real and has effect on the ground. And in that regard, the 
White House, the National Security Council is critical in 
working across the interagency to make sure that not only do 
each agency do this work but the top-down leadership from their 
secretaries, but that as the interagency is shaping policy 
together, that they are bringing attention to Women, Peace, and 
Security into that.
    Senator Rubio. I do not know if anyone would disagree. I 
think the first test of whether this strategy is real and is 
working and is being implemented is going to be Afghanistan 
because when you go into that meeting, if the stated goal of it 
is let us figure out a way to get out and withdraw U.S. troops, 
I mean, that is not a hard thing to negotiate. Right? You just 
say this is the day we are leaving. It is the implications of 
that withdrawal. And I even think it is possible--I think it is 
not as easy as some people think it is, but it is possible to 
come up with a deal, quote/unquote, in which all kinds of 
promises and assurances are made about elections and this, 
that, or the other.
    But I think all of us would recognize--and, Ms. Kakar, you 
point this out in your answer to the first question that I 
had--that if any deal does, in fact, not have in it real 
protections and verifiable measures to ensure the role that 
women are going to play in that society--in essence, this is 
going to be going back to how things were for women in 2001--
this deal is not going to be real. We are going to go right 
back in time to the same point. And someone in that room needs 
to be raising that as part of that conversation because I do 
not care what people tell you about how great this deal is, it 
is getting us out and there are some structures set up for it 
to work, it is not a real deal if it does not take that into 
account.
    Which, Ms. Kakar, leads me to my last question, and that is 
one of the arguments being used for why this is so difficult--
because we can push countries to change their laws. They still 
have to implement them. So that is a challenge. But one of the 
places where we really get the realists in the room to say, 
look, we can get them to sign whatever you want. This is not a 
political issue. This is a cultural, a religious--this is 
thousands of years of the way have treated women in those 
societies, and they view this as an imposition of Western 
values and Western ideas on them. And some will argue--I am not 
making that argument--who are we to tell them what their 
culture should be. Others will just say it would be a great 
thing to achieve but it is not realistic. And so that is a 
point I wanted you to address because we have heard and we will 
hear that argument that this is a cultural and religious issue 
and that we cannot force people to all be Western in their 
views. I mean, that is the argument they would make.
    Ms. Kakar. Thank you for the question.
    I would actually push back, particularly in the case of 
Afghanistan, that this is not a Western imposition. This is 
very indigenous to Afghanistan. Women have been involved in all 
kinds of decision-makings throughout Afghan history. Starting 
from the beginning, the very inception of the Afghan modern 
state, it was the mother of Ahmed Shah Durrani who--Nazu Anna. 
She was the one who actually was able to bring the tribes 
together to form the Afghan state. It was on her--it was her 
initiatives that really brought the state together.
    Senator Rubio. In Afghanistan, do people know that?
    Ms. Kakar. The story of Nazu Anna is known in Afghanistan, 
yes.
    And we have examples of women who are on the local shuras, 
the tribal jirgas who make decisions who have been there--as 
part of Afghanistan's culture, have been there for centuries on 
the councils. This is part of Afghan culture in terms of women 
being part of the solution of a peace process.
    There are even specific--how should I say it--in terms of 
local justice systems, there is the Pashtunwali code of 
conduct, which I have written and researched about, where women 
are the catalysts for resolving conflict. There are all kinds 
of traditional codes where women are the ones who go and 
initiate the conversation. They go across enemy lines and 
initiate the conversations to end conflicts. So this is not 
something that is coming from the outside. This is very, very 
indigenous.
    And just to add to that, currently what we are seeing in 
terms of how the Taliban have, at the local level, respected 
women crossing those lines and have listened to them, that 
creates this opportunity and a door and a window to open things 
up.
    Yes, it needs to be framed within a religious framework, 
and I think women in Afghanistan realize the importance of 
framing it within an Islamic law framework to talk about their 
rights. But there are many indigenous examples, and this is not 
a Western imposition.
    Senator Rubio. So the bottom line is the treatment of women 
by the Taliban is the foreign idea here.
    Ms. Kakar. Yes, it is.
    Senator Rubio. All right. I am done.
    Do you have anything else?
    Senator Cardin. Mr. Chairman, first, these values are 
universal values. These are not Western values. The United 
Nations has spoken to this and sustainable development goals 
and so many other universal rights. There are so many areas 
that we talk about empowerment of women is not a Western value. 
It is a universal value. And I think we always have to 
underscore that.
    Your questioning I thought was extremely important as to 
the capacity we have in this country to understand all this 
through our curriculum. I like that. We really do need to have 
that.
    Ms. Bigio, I wanted to get your view, before we conclude 
this hearing, on what went right and wrong with the U.N. 
Security Council resolution. It is a big deal to get a U.N. 
Security Council resolution passed. When we look at the 
results, are they favorable or not? Seventy-nine nations I 
understand have submitted their response to the resolution. 
That means the majority have not. And that is just submitting a 
strategy. It does not mean they have implemented it.
    So from your experiences in representing the United States 
on this, where did we go right? Where did we go wrong? What did 
we learn from this, and how do we use the experiences over the 
last 19 years to have greater success in penetrating the 
international community on these subjects?
    Ms. Bigio. Thank you. It is a great question and it is 
critical, as we come on the 20th anniversary of that first U.N. 
Security Council resolution, to look back and assess where we 
are and what more can we do.
    So, first off, in those 20 years, it is critical that there 
are more voices of support. That was the first time that anyone 
put the issue of women's participation in preventing and 
resolving conflicts as a security issue, as a security 
imperative. And now to have growing voices, now nearly 80 
countries, with that commitment, NATO, the EU, the African 
Union, regional bodies around the world have made those 
commitments as well. So that is a starting point that we have a 
shared value and recognition that it is in our security 
interests to support women's meaningful participation in 
conflict.
    From that, we do see some steps forward. We see cases like 
in the Philippines it was a female chief negotiator that helped 
negotiate that peace process. In Colombia, women had 30 percent 
representation at the negotiating table, and the peace 
agreement reflects that. There is a whole broader set of issues 
that are part of that agreement that will help set the country 
up on a better course in their efforts to recover from 
conflicts there. There are commitments underway now to actually 
have countries deploy more female peacekeepers so that 
peacekeeping missions can be more legitimate. There are 
meaningful commitments that are being made.
    But the progress has lagged and the transformational change 
has not happened yet. So it really is case by case that we are 
still making the argument that women need a seat at the table. 
In too many cases they do not. Women-led groups need our 
support. They are doing incredible work on the ground in their 
communities negotiating local ceasefires, negotiating 
humanitarian access and movement abilities for people in the 
midst of conflict zones. They are doing things local 
governments should be doing but are not. They are forming 
female police brigades to provide security and staffing 
hospitals and schools and helping build a framework for peace 
in their communities. But they get, as I said before, just .4 
percent of funding. And that is an area where we need to talk 
to them more, listen to them, have that shape our own policies 
in those governments and support them so that they can do more 
of the critical work they are already doing.
    Senator Cardin. I think the chairman raised a very 
important point, that we are always accused of trying to impose 
our values on other countries, which is not the case. The 
impetus, as I understand it, for the U.N. Security Council 
resolution came from Western Africa, as we talked about before 
when the hearing started.
    When I travel, as I do a great deal as a member of this 
committee, as a Member of the Senate, and also for the Helsinki 
Commission, I find that the United States is not in the 
forefront on these issues. When you look at the representation 
groups, we usually are behind the curve rather than in front of 
the curve on women representation. So it is something that we 
need to talk about: how we leverage the U.S. critical support 
that is necessary to bring about global change with the fact 
that there are groups around the world well ahead of where we 
are here in the United States, and how we utilize that for an 
effective U.S. leadership to accomplish change.
    So it really is a challenge, Mr. Chairman. I think you 
raised it because we are always looked at as trying to mold the 
world as we see it rather than, in many cases, the world has 
changed and the United States needs to catch up a little bit 
but also use our leadership for global security.
    Thank you.
    Senator Rubio. Senator Shaheen.
    Senator Shaheen. Well, thank you, Mr. Chairman.
    A lot of our discussion today has been around Afghanistan. 
And I agree with the chairman. This really does offer the best 
opportunity immediately to see how we implement the Women, 
Peace, and Security Strategy in a meaningful way.
    I was in Afghanistan in April meeting with a number of 
women leaders, and I heard the same thing you mentioned, Ms. 
Kakar, that they were very concerned that the United States was 
going to cut a deal with the Taliban that would not ensure that 
rights of women continue.
    So what can we be doing as we look at implementing the 
strategy? What should we be doing to reassure Afghan women to 
make sure they have a seat at the table? You talked about the 
metrics, having that be part of any withdrawal agreement, 
having incentives to the political parties. But what do Afghan 
women want to hear from the United States now to assure them 
that this is a commitment that we have and we will continue to 
have through any peace negotiations?
    Ms. Kakar. Thank you for the question.
    I think it is really important to continue to be public 
about those assurances and continue to talk like we have at 
this hearing about the implementation of the strategy on Women, 
Peace, and Security and how that will be implemented in 
Afghanistan. That is a huge assurance to hear that. And I am 
sure many Afghan women will find assurances in that. But to 
continue to have these conversations and to make sure that 
these conversations are public. Women have said that it is not 
enough to just have a few women behind a closed door and have 
consultations with them, but it is important to have public 
conversations. It is important for, for example, Khalilzad's 
team who is there negotiating on behalf of the U.S. Government 
to be public with the women and have public conversations with 
them on some of the issues and on these reassurances of how it 
will be implemented.
    So these are issues that they are very, very concerned 
about, and I think a continued public conversation about this 
showing transparency in the conversation, making sure that the 
incentives are well known and the push for the incentives are 
well known, and how the strategy will be implemented in 
Afghanistan, I think that will really help alleviate some of 
these concerns.
    Senator Shaheen. Well, thank you.
    I hope, Mr. Chairman and Ranking Member Cardin, that this 
committee will take an active role in trying to assure that we 
keep the women forefront as we look at any peace negotiations 
and that we work to ensure that this strategy gets implemented 
in Afghanistan as we are looking into that conflict and 
thinking about how we can engage in that.
    Senator Rubio. I think in all these conversations, one of 
the critical points that is going to have to be raised 
repeatedly is that, if done hastily and without the proper 
safeguards in place, not only are we going to see the 
unraveling of almost 20 years of commitment to this. It is 
actually going to be worse than it was in 2001 because there 
are now women and girls that have gone to school, that have 
actually done things, that are on a list somewhere of the first 
ones they are going to go after to punish and make an example 
of them. So in many ways, this is not just going to be as bad. 
It is going to be worse because there are actual people that 
are going to be targeted for having the audacity to go to 
school and things of this nature. So it is a really tenuous 
situation, to say the least.
    Is there anything else?
    Senator Cardin. Thank you all.
    Senator Rubio. I want to thank you. It was a very good 
hearing and I think we have learned a lot, and I think we have 
a lot to think about in terms of our role in conducting 
oversight so that this is a sustained effort. Unfortunately, 
the world is going to continue to have conflicts, and this is 
going to continue to be raised. So again, I want to thank you, 
and I want to thank everyone for being here. This is a 
phenomenal hearing.
    The record for the hearing will remain open for 48 hours.
    And with that, the hearing is adjourned.
    [Whereupon, at 11:30 a.m., the hearing was adjourned.]

             Women, Peace, and Security National Strategy 
                      Submitted by Jeanne Shaheen

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                    
</pre></body></html>
